NO.
In the
SUPREME COURT OF THE UNITED STATES
ANNE GEORGES TELASCO,
Petitioner,
v.
THE FLORIDA BAR,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
APPENDIX

Anne Georges Telasco
Pro Se, Petitioner
764 Jay Street
Rochester, New York 14611
Telephone: (585) 201-2492
Email: agtelasco@aol.com

11

APPENDIX TO THE PETITION FOR
A WRIT OF CERTIORARI
TABLE OF APPENDICES
APPENDIX

PAGE

Appendix A
Opinion of The United States Court of
Appeals for the Eleventh Circuit,
Anne Georges Telasco v. The Florida
Bar, No.: 20-13272 (April 28 2021)....... la
Appendix B
Order of The United States District
Court for the Southern District of
Florida, Anne Georges Telasco v.
The Florida Bar,
No.: 19-22135-CIV-SMITH
(August 19, 2020)..............................

9a

Appendix C
Second Amended Verified
Complaint........................

18a

Appendix D
Motion to Dismiss

320a

Appendix E
Response to Motion to dismiss

344a

Appendix F

Ill

Initial brief of Appellant
Pertinent parts

382a

Appendix G
Plaintiff Amended First Request
for Production of Documents
Pertinent parts.............................

387a

Appendix H
Defendant’s Motion to Stay
Discovery Pertinent parts...

390a

Appendix I
Plaintiffs First Set of Request
for Admissions Pertinent parts

392a

Appendix J
Defendant’s Motion to Stay
Discovery Pertinent parts ..

405a

Appendix K
Defendant’s Reply to its Motion
To Stay Discovery Pertinent parts

407a

la
APPENDIX A
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 1 of 7
[DO NOT PUBLISH]
IN THE UNITED STATES
COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13272
Non-Argument Calendar
D.C. Docket No. l:19-cv-22135-RS
ANNE GEORGES TELASCO,
Plaintiff-Appellant,
versus
THE FLORIDA BAR,
An unincorporated association,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
(April 28, 2021)

2a
Before JORDAN, GRANT, and LUCK, Circuit
Judges.
PER CURIAM:
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 2 of 7
Anne Georges Telasco appeals the district
court’s order dismissing her defamation suit
against the Florida Bar. The district court
concluded that Telasco’s complaint was barred by
Eleventh Amendment sovereign immunity because
the bar is an official arm of the state. We reach the
same conclusion and affirm.
FACTUAL BACKGROUND AND
PROCEDURAL HISTORY
Telasco became a member of the bar in 1992
and started her own firm. Two years later, she
brought an employment discrimination case
against a hotel chain on behalf of eight employees.
The case settled for $300,000. In November 1999, a
bar complaint was filed against Telasco related to
settlement payments from this case. The bar
opened an investigation into Telasco and audited
her finances.
Telasco, through counsel, reached a settlement
with the bar whereby she would petition the
Florida Supreme Court for a disciplinary
resignation. Rather than sign the petition for
resignation prepared by her counsel, however,
Telasco authored and submitted her own petition.

3a
But she did not seek or obtain permission from the
Florida Supreme Court to resign her bar
membership. The disciplinary proceedings against
her therefore continued and Telasco did not appear
for the final hearing before the bar referee.
According to Telasco, she never received notice that
her pro se petition for resignation was defective and
never received notice of the ongoing disciplinary
proceedings.
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 3 of 7
In April 2002, the referee issued a report
finding
that
Telasco
had
engaged
in
misappropriation, failed to maintain trust
accounting records, and failed to adhere to required
trust accounting procedures.
The
referee
recommended her disbarment. In July 2002, the
Florida Supreme Court adopted the referee’s report
and disbarred Telasco.
Telasco moved to New York. In 2008, she
decided to apply for admission to the New York
Bar. Telasco requested from the Florida Bar a
letter of good standing and a grievance letter. The
bar declined to give her a letter of good standing
and sent her a grievance letter, which laid out her
disciplinary history and indicated that she had
been disbarred. Telasco then challenged her 2002
disbarment by filing a petition for a writ of
certiorari to the United States Supreme Court,
which was denied.

4a
In 2018, Telasco again decided to apply for
admission to the New York Bar. She requested
from the Florida Bar another grievance letter and a
letter of good standing. The bar sent Telasco a
grievance letter, which was identical to the letter it
had sent her in 2008.
Telasco sued the bar in federal court, bringing
claims for defamation per se, general defamation,
and defamation by implication. She alleged that the
bar’s 2018 grievance letter had defamed her.
Telasco maintained that the bar was liable for her
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 4 of 7
damages
under
Florida
Statutes
section
768.28(9)(a) because it had acted maliciously and in
bad faith.
The bar moved to dismiss Telasco’s complaint,
arguing that it was entitled to Eleventh
Amendment sovereign immunity because it was a
state agency and had not consented to being sued
in federal court.
Telasco filed a response in opposition to the
bar’s motion. She conceded that the bar was a
“state agency” but argued that section 768.28
authorized her suit. Florida waived its sovereign
immunity by enacting this statute, Telasco argued,
which allowed her suit to proceed because the bar
had acted outside the scope of its authority when it
defamed her.

5a
The district court granted the bar’s motion to
dismiss. The district court concluded that the bar
was entitled to sovereign immunity because it was
an official arm of the Florida Supreme Court. The
district court rejected Telasco’s argument that
Florida had waived sovereign immunity through its
enactment of section 768.28, concluding that the
state’s waiver of sovereign immunity in its own
courts did not amount to a waiver of its Eleventh
Amendment immunity in federal courts. Telasco
now appeals the district court’s order dismissing
her complaint.
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 5 of 7
STANDARD OF REVIEW
We review de novo a district court’s order
dismissing a complaint based on a grant of
Eleventh Amendment sovereign immunity. In re
Emp. Discrimination Litig. Against State of Ala.,
198 F.3d 1305, 1310 (11th Cir. 1999).
DISCUSSION
“The Eleventh Amendment of the United States
Constitution bars suits against states in federal
court unless a state has waived its sovereign
immunity or Congress has abrogated it.” Cassady v.
Hall, 892 F.3d 1150, 1152 (11th Cir. 2018). This
prohibition “includes state agencies and other arms
of the state.” Id. at 1153. Although a state “may
consent to suit against it in federal court,” consent
must be “unequivocally expressed.” Pennhurst State

6a
Sch. & Hosp. v. Halderman, 465 U.S. 89, 99 (1984).
Florida has waived its sovereign immunity in its
own courts for certain torts, Fla. Stat. § 768.28(1),
but has not waived its immunity to suit in federal
court, id. § 768.28(18) (“No provision of this section
. . . shall be construed to waive the immunity of the
state or any of its agencies from suit in federal
court, as such immunity is guaranteed by the
Eleventh Amendment....”).
The Florida Supreme Court is a state agency
for sovereign immunity purposes. See Uberoi v.
Sup. Ct. of Fla., 819 F.3d 1311, 1313-14 (11th Cir.
2016) (“Sovereign immunity bars Uberoi’s due
process claim because the Florida Supreme Court is
a department of the State of Florida.”). The bar is
an “official arm” of the
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 6 of 7
Florida Supreme Court and is also shielded by
sovereign immunity. Kaimowitz v. Fla. Bar, 996
F.2d 1151, 1155 (11th Cir. 1993); see also Nichols v.
Ala. State Bar, 815 F.3d 726, 732 (11th Cir. 2016)
(observing that we have “previously concluded that
the Florida State Bar is an ‘arm of the State’ that
enjoys Eleventh Amendment immunity,” and
holding that “the Alabama State Bar is an arm of
the state of Alabama and thus enjoys Eleventh
Amendment immunity”). Here, the bar did not
consent to Telasco’s suit against it. The district
court therefore correctly concluded that the bar was
entitled to sovereign immunity.

7a
Telasco maintains that the bar was not entitled
to sovereign immunity because she has a First
Amendment right to petition the federal courts to
redress her grievances. But she raises this
argument for the first time on appeal. “As a general
rule, an issue raised for the first time on appeal
will not be considered.” In re Dukes, 909 F.3d 1306,
1322 (11th Cir. 2018) (quotation omitted). And, in
any event, this argument is foreclosed by our
precedent. See Kaimowitz, 996 F.2d at 1155; Cate v.
Oldham, 707 F.2d 1176, 1180-83 (11th Cir. 1983)
(applying
Eleventh
Amendment
sovereign
immunity to a First Amendment Petition Clause
claim).
Telasco next argues that the bar waived its
immunity two decades ago when it started the
disbarment proceedings. But the state disbarment
case against her and her federal suit against the
bar are two entirely separate proceedings. Because
USCA11 Case: 20-13272 Date Filed: 04/28/2021
Page: 7 of 7
Telasco—not the bar—commenced the litigation in
federal court, her suit could not proceed without
the bar’s consent. See Pennhurst State, 465 U.S. at
99.
In sum, the bar is an official arm of the state and
did not commence or consent to these proceedings.
Telasco’s suit therefore could not be heard in
federal court. *
AFFIRMED.

}

<

8a

^ Because we conclude that the bar was entitled to sovereign
immunity, we do not address its alternative arguments that
dismissal was appropriate because: (1) it was entitled to
absolute immunity; (2) the district court lacked jurisdiction
under the Rooker-Feldman doctrine; and (3) Telasco’s
complaint failed to state a claim.

i

9a
APPENDIX B
Case l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 1 of 6
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-22135-CIV-SMITH
ANNE GEORGES TELASCO,
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.

t.

ORDER GRANTING DEFENDANTS
MOTION TO DISMISS
This matter is before the Court on Defendant,
The Florida Bar’s Motion to Dismiss Second
Amended Complaint [DE 66]; Plaintiff, Anne
Georges Telasco’s Opposition to the Motion [DE
70]; and Defendant’s Reply [DE 73]. Plaintiff, a
former member of The Florida Bar (or “the Bar”),
sues the Bar for defamation in connection with
disbarment proceedings and alleged fabricated
contents of a grievance letter issued by the Bar.
The Florida Bar argues that Plaintiffs Second
Amended Complaint [DE 53] should be dismissed

10a
because it fails to state a claim and this suit is
barred by the Eleventh Amendment to the United
States Constitution, absolute immunity, and the
Rooker-Feldman doctrine. The Court agrees that it
lacks subject matter jurisdiction under the
Eleventh Amendment. Thus, the Motion is granted
and this case is dismissed without prejudice.
I. BACKGROUND
In her 318-paragraphs-long Second Amended
Complaint, Plaintiff alleges claims against The
Florida Bar for defamation per se, defamation, and
defamation by implication. In deciding this Motion,
the Court accepts all allegations in the Second
Amended Complaint as true.
Plaintiff passed The Florida Bar exam in 1992
and became a licensed member of the Bar. (Sec.
Am. Compl. f 23.) She opened her own law firm in
1993, focusing her practice on family
Case l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 2 of 6
law, discrimination law, and civil rights litigation.
(Id. K 24.) In 1994, Plaintiff filed employment
discrimination actions against an international
hotel chain on behalf of eight employees (“the
Litigation”). (Id. T) 56.) Five years into the
Litigation, one case was dismissed after a full
administrative evidentiary hearing and, in two
other cases, jury trials resulted in a finding of
discrimination but gave no monetary award. (Id. H
62.) Before the start of the third trial, the parties to

11a
the Litigation settled all eight cases for $300,000,
agreeing to a payment plan of six payments of
$50,000 over the course of six months. {Id.
6364.)
Plaintiff sent a letter to all eight clients
informing them of the time and date to collect their
settlement checks. {Id. 73.) One client decided he
no longer wanted to share settlement proceeds with
the client whose case was dismissed and the clients
who failed to recover at trial. {Id.) This dissatisfied
client took his settlement statement to another
attorney, Jonathan D. Wald, for review. {Id.) Upon
receiving the settlement statement, Mr. Wald
demanded that Plaintiff provide him with a copy of
the confidential settlement agreement and access
to her files, claiming he needed to review Plaintiffs
costs and expenditures against the itemized
settlement statements she had given to the clients.
{Id. 77.) When Plaintiff refused his demand, Mr.
Wald sent a letter to The Florida Bar purportedly
on behalf of the dissatisfied client, asking the Bar
to file a formal grievance against Plaintiff. {Id. ^
78.)
Around December 1999, the Bar opened an
investigation into the validity of costs and expenses
Plaintiff incurred in the eight cases. {Id. H 79.) The
Bar hired Carlos J. Ruga to audit Plaintiffs
financial records. {Id. t 80.) Mr. Ruga issued his
findings (“Report”) on July 14, 2000, concluding
that all costs and expenses were incurred and
properly paid and finding no violation of The

12a
Florida Bar Rules. (Id. KK 83-84.) The Bar ignored
the Report and refused to give Plaintiff a copy of
the Report. (Id.) Instead, the Bar immediately
appointed Joseph Ganguzza, thenCase l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 3 of 6
Chairman of the Bar’s Grievance Committee and a
friend of Mr. Wald, to determine whether probable
cause existed for Plaintiffs disbarment. (Id.) Upon
appointment, Mr. Ganguzza advised Plaintiff he
would close the investigation if she agreed to give
the $300,000 in settlement funds to Mr. Wald,
which Plaintiff refused to do. (Id. KK 87-88.)
Following this discussion, Plaintiff retained
attorney William Ullman to represent her. (Id. K
95.)
Mr. Ullman brokered a settlement with the
Bar, resulting in the Bar sending a Petition for
Disciplinary Resignation and an Affidavit to Mr.
Ullman for Plaintiffs signature. (Id. K1 96-97.) Mr.
Ullman advised Plaintiff to sign the Petition, which
would have made Plaintiff eligible to apply for
readmission to the Bar after three or five years and
would have allowed her to work as a paralegal in
the interim. (Id. Kt 100-101.) Instead of signing
this Petition, on October 30, 2001, Plaintiff
prepared her own resignation packet, which she
submitted to the Bar at some point. (Id. UK 105,
108, 111-112.) Around this time, she asked Mr.
Ullman to withdraw from her case. (Id. f 106.)
Additionally, on November 6, 2001, Plaintiff hand

13a
delivered to the judge apparently presiding over
her disbarment proceedings a notice of filing
settlement funds and a cashier’s check payable to
the Florida Supreme Court in the amount of
$49,147.70—the sum owed to the clients she
represented in the Litigation. (Id. 1f1| 107-108.)
Following her resignation, Plaintiff moved to
New York in early 2002. (Id. 130.) In September
2008, Plaintiff decided to apply to the New York
Bar. (Id. H 141.) Plaintiff requested a letter of good
standing and a grievance letter from The Florida
Bar. (Id. K 142.) The Florida Bar did not issue a
letter of good standing, but around September 24,
2008, Plaintiff received a grievance letter. (Id.
142, 144.) This grievance letter (and a similar
version issued by the Bar in 2018) forms the basis
of Plaintiffs defamation claim. The grievance letter
is defamatory because it reflects cases The Florida
Bar fabricated against Plaintiff; that is, instead of
the one case
Case l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 4 of 6
that led to Plaintiffs resignation, the grievance
letter fists a total of four cases against Plaintiff, all
stemming from the Litigation. (Id. HU 144-161.) The
Bar did not provide Plaintiff with notice of these
actions. (Id.) The grievance letter also fails to
mention that Plaintiff submitted the settlement
funds to the Bar, it attaches an incomplete copy of
Plaintiffs resignation packet, and gives the false
impression that the judgment of disbarment for

14a
theft entered against Plaintiff was not obtained ex
parte and by default. (Id.) The grievance letter also
incorporates an amended, “doctored” version of the
auditors Report. (Id.
178-199.) Based on this
amended Report, the Florida Supreme Court
entered a judgment of disbarment for theft against
Plaintiff on July 11, 2002. (Id. 1f 203.) The Florida
Bar failed to disclose to the Florida Supreme Court
that Plaintiff submitted the settlement funds to
Bar on November 6, 2001. (Id.
200-206.) Later,
Plaintiff discovered a fifth fabricated case, which
was not listed in the grievance letter and was
viewable only by pulling Plaintiffs Florida Bar file.
(Id. 11 207-218.)
Upon discovering these five fabricated cases, on
February 20, 2009, Plaintiff filed a Petition for Writ
of Certiorari with the United States Supreme
Court. (Id. 1 219.) The Supreme Court denied the
Petition for Writ of Certiorari as untimely. (Id.) The
ruling sent Plaintiff into a 10-year long battle with
depression. (Id. H 219-227.)

i

In 2018, Plaintiff reapplied for admission to the
New York Bar. (Id. H 230-236.) She reapplied not
to practice law but hopefully to clear her name; she
hoped New York would review all the evidence
pertaining to her Florida disbarment and would
view the Florida judgment of theft as a fabrication
by The Florida Bar. (Id.) Needing to provide
updated material to the New York Bar, Plaintiff
requested a grievance letter from The Florida Bar.
(Id.) Around March 27, 2018, Plaintiff received a

15a
grievance letter from The Florida Bar that was an
exact match of the letter the Bar sent her in 2008.
(Id.) The Bar reissued this letter ten years after it
became aware that the
Case l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 5 of 6
judgment of disbarment for theft against Plaintiff
was fraudulently obtained and was the product of
fabricated charges. (Id.) Plaintiff has learnt that
most state bars, including New York, will honor
and accept The Florida Bar’s judgment of theft
against her. (Id. K 235.) In this suit, Plaintiff seeks
$75,000 in compensatory and actual damages and
$75,000 in punitive damages against The Florida
Bar for defamation. (Id.
316-317.)
II. DISCUSSION
The Eleventh Amendment to the United State
Constitution, as interpreted by the United States
Supreme Court, prohibits federal courts from
exercising subject matter jurisdiction in suits
brought against a^state by a citizen of that state or
citizens of another state. Welch v. Texas Dep’t of
Highways & Pub. Transp., 483 U.S. 468, 472
(1987). “The amendment applies even when a state
is not named as a party of record, if for all practical
purposes the action is against the state.” Schopler
v. Bliss, 903 F.2d 1373, 1378 (11th Cir. 1990)
(citation omitted). Thus, as a department of the
State of Florida, the Florida Supreme Court also
has Eleventh Amendment immunity. Uberoi v.

16a
Supreme Court of Fla., 819 F.3d 1311, 1313-14
(11th Cir. 2016) (citing Fla. Const, art. V, § 1). The
Florida Supreme Court has established The Florida
Bar as “an official arm of the court.” R. Regulating
Fla. Bar, Intro. Therefore, as a state agency, The
Florida Bar is also covered by the Eleventh
Amendment, which deprives this Court of subject
matter jurisdiction over this suit. See Kaimowitz v.
The Fla. Bar, 996 F.2d 1151, 1155 (11th Cir. 1993)
(noting well-settled law that the “[t]he Eleventh
Amendment prohibits actions against state courts
and state bars,” and affirming district court order
dismissing suit against The Florida Bar for lack of
subject matter jurisdiction under the Eleventh
Amendment).
Plaintiff acknowledges that The Florida Bar is
a state agency but argues that “[t]he Florida
Legislature has waived sovereign immunity from
traditional tort suits to the extent set out in
Case l:19-cv-22135-RS Document 80 Entered
on FLSD Docket 08/19/2020 Page 6 of 6
Section 768.28, Florida Statutes.” (Pl.’s Resp. at 1213; see also Sec. Am. Compl.
42-43.) Plaintiff is
wrong. Evidence that a state has waived sovereign
immunity in its own courts is not by itself sufficient
to establish waiver of Eleventh Amendment
immunity from suit in federal court, and the
Eleventh Circuit has held that section 768.28 does
not waive
Florida’s Eleventh Amendment
immunity. Schopler, 903 F.2d at 1379 (holding that
the district court erred in interpreting section

17a
768.28 as a statutory waiver of Eleventh
Amendment immunity and, by extension, finding
that the Florida Department of Professional
Regulation and the Florida Board of Dentistry (“the
Board”) were entitled to absolute immunity from
suit against these state agencies and individual
Board members; the suit alleged that Board
members made false and defamatory statements
against the plaintiff). Here, The Florida Bar is
entitled to Eleventh Amendment immunity.
Accordingly, it is
ORDERED that:
1. Defendant, The Florida Bar’s Motion to
Dismiss Second Amended Complaint [DE 66] is
GRANTED and this case is DISMISSED
WITHOUT PREJUDICE for lack of subject
matter jurisdiction.
2. All pending motions not otherwise ruled on
are DENIED AS MOOT.
3. This case is CLOSED.
DONE AND ORDERED in Fort Lauderdale,
Florida, this 19th day of August 2020.
IS/
RODNEY SMITH
UNITED STATE DISTRICT JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

18a
APPENDIX C
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 1 of 300
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
ANNE GEORGES TELASCO,
Rochester, New York
Plaintiff,
Civil Action
v.

No.: 19-CV-22135-RS

THE FLORIDA BAR,
an unincorporated association,
Suite M100, Rivergate Plaza
444 Brickell Avenue
Miami, Florida 33131-2404
Defendant.
SECOND AMENDED VERIFIED COMPLAINT
AND
DEMAND FOR JURY TRIAL
Plaintiff, Anne Georges Telasco (hereinafter
Telasco),
sues Defendant, The Florida Bar,
(hereinafter The Bar) in this civil action for
Common Law Defamation Per Se (libel per se),
General Defamation,
and Defamation by

19a

Implication as a result of The Bar causing actual
damages, compensatory damages, and giving rise to
punitive damages as well, including continuing and
aggravated harm to Telasco’s professional and
personal life. As, grounds therefore, Telasco alleges
as follows:
I.

JURISDICTION AND VENUE

1. This Court has subject matter jurisdiction
over this action pursuant to 28 U.S.C. §1332
diversity of citizenship.
2. The parties are citizens of different states
and the amount in Exceeds $75,000.00.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 2 of 300
3. The causes of action arose in this judicial
district, The Bar has a place of business in this
judicial district, and this court has jurisdiction over
it in said judicial district.
4. The Bar is a state agency and jurisdiction
of this court over it is also authorized under Florida
Statute Section 768.28.1

1 The Florida legislature has waived sovereign immunity
from tort suits to the extent set out in § 768.28. The waiver
extends to any state "agencies or subdivisions," defined to
include "counties and municipalities" and "corporations

20a

5. Telasco’s tort action for defamation per
general defamation and defamation by
se
implication against The Bar is also authorized by
section 768.28 of the Florida Statutes.2

primarily acting as instrumentalities or agencies of . . .
municipalities." Id. § 768.28(1), (2). Fla.Stat.Ann. Sec.
768.28 (West Supp. 2018) is the statutory enactment which
represents a limited waiver of Florida's sovereign immunity
in tort actions.
“...The Florida Bar is an arm and part of the judiciary,
one of the three co-equal departments of state government.
See Dacey v. Florida Bar, Inc., 414 F.2d 195 (5th Cir. 1969).”
Mueller at 451.
The Florida Bar is a Florida State agency subject to
768.28 and its mandate. Uberoi u . Supreme Court of Florida,
819 F.3rd 1311, 1313, 1314 (11th Cir. 2016).
2 Section 768.28 authorizes recovery of tort damages
against Florida or any of its agencies or subdivisions for
"negligent or wrongful acts of any [state] employee while
acting within the scope of his office or employment." Fla. Stat.
Ann. §768.28(1). Moreover, the statute provides that the
state or its agencies may be held liable "in accordance with
the general laws of this state." Fla. Stat. Ann. §768.28(1).
In Paul v. Davis. 424 U.S. 693, 96 S.Ct. 1155, 47
L.Ed.2d 405 (1976) the United States Supreme Court held
that when defamation is committed by a public body, it is not
a constitutional tort. The interest in reputation that the
common law tort of defamation protects has been held not to
be a species of liberty or property within the meaning of the
due process clauses of the Fifth and Fourteenth Amendments.

21a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 3 of 300
6. Telasco has timely complied with the pre­
suit notice requirement of Section 768.28(6)(a) by

The Mueller court clarify common law defamation as
follow, “In the area of defamation, the rule in Florida is that
words spoken or written by public servants in judicial,
legislative and executive activities are protected by absolute
privilege from liability for defamation. McNayr v. Kelly, 184
So.2d 428 (Fla. 1966), adopting the rule and rationale of Barr
v. Matteo, 360 U.S. 564, 79 S.Ct. 1335, 3 L.Ed.2d 1434 (1959).
... the privilege extends only to words or acts within the
scope of the authority of the public servant. Mueller 390
So.2d at 451; Ward v. Allen, 11 So.2d 193 (Fla.1942); Saxon v.
Knowles, 185 So.2d 194 (Fla. 4th DCA 1966); Knight v. Starr,
275 So.2d 37 (Fla. 4th DCA 1973).”
In Mueller v. Florida Bar. 390 So.2d 449, 451 (Fla. 4th
DCA 1980) the court held that “We have previously
distinguished absolute privilege from the concept of sovereign
immunity. Cobbs Auto Sales, Inc. v. Melvin Coleman, 353
So.2d 922 (Fla. 4th DCA 1978).” In Cobbs Auto Sales. Inc, v.
Melvin Coleman, 353 So.2d 922 (Fla. 4th DCA 1978), we held
that, “The defense of privilege is a separate and distinct
concept from sovereign immunity, the abrogation of which
appellant relies on here to avoid the defense of privilege. The
doctrine of sovereign immunity was a rule laid down by the
ruling authority that he, because he was the ruler, could do
no wrong and therefore was immune from any charges that
he had done wrong. The legislature, by enacting Section
768.28, decided this common law doctrine should be removed
from the law of Florida.”

22a
sending a notice via certified mail return receipt
requested to The Bar and the head of the
Department of Insurance on July 24, 2019 and The
Risk Management Office of the Department of
Insurance on July 29, 2019.
7. The notices were duly received by The Bar,
and the head of the Department of Insurance on
July 29, 2019 and The Risk Management Office of
the Department of Insurance on August 1, 2019
respectively.3
8. Venue is proper for The Bar pursuant to 28
U.S.C. §1332 (b)(2) and 28 U.S.C. §1332 (c)(2).
9. The causes of action and the injuries were
caused to Telasco by The Bar’s defamation and
other tortious conduct in this judicial district.
10. Telasco’s traditional tort action for
defamation per se (libel per se), general defamation
and defamation by implication is timely under
§768.28(6)(a), Fla. Stat. (2019)\ 4 Fla. Stat. Section
3 See Copies of Notice of Claim Letters and Return
Receipts attached as Exhibits “Si,” “S2,” and “S3”
respectively.
4 “An action may not be instituted on a claim against
the state or one of its agencies or subdivisions unless the
claimant presents the claim in writing to the appropriate
agency, and ... to the Department of Financial Services,
within 3 years after such claim accrues ....” § 768.28(6)(a), Fla.
Stat. (2019).

23a
§95.11(4)(g) (2019);5 and Florida’s Multiple
Publication Rule which states that an action for
defamation accrues whenever a defamatory
statement is made, and each repetition of the same
defamatory matter by the same defamer, whether
to a new person or to the same person, is a separate
and distinct publication, for which a separate cause
of action arises. Thus, each single defamatory
statement constitutes a new cause of action for
statute of limitation
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 4 of 300
purposes. Restatement (Second) Torts S577A (1977);
Doe v. Am. Online. Inc.. 783 So2d 1010, 1017 (Fla.
2001); Musto u. Bell South Telecommunications.
748 So.2d 296 (Fla. App. 1999); and Wagner.
Nugent. Johnson. Roth. Romano. Erikson & Kuvfer.
P.A. a. Flanagan. 629 So.2d 113, 114 (Fla. 1993).6

5 Florida Statutes Section 95.11(4)(g) (2019) places a
two-year limitation on defamation actions. Section 95.11 is
applicable because Plaintiffs claim is not distinguishable in
any material respect from a traditional common law libel per
se claim.
6 Telasco’s causes of action does not fall under The
Single Publication Rule. The Single Publication Rule is
applicable to situations where the same communication is
heard at the same time by two or more persons. The single
publication rule treats the communication to the entire group

24a

A) Introduction
11. The Bar has defamed and continues
to defame Telasco by maliciously, willfully and/or
negligently published The Grievance Letter dated
March 23, 2018,7 which incorporated the Amended
Referee’s Report dated April 29, 20028 and
Judgment of disbarment for theft dated July 11,
2002 to The New York Bar.
12. The grievance letter with its accompanying
documents are libelous per se in that it declares
that The Supreme Court of Florida disbarred
Telasco because a) Telasco committed a felony by
misappropriating her clients’ settlement funds
when The Bar had actual possession and control of
the same funds, b) that Telasco’s conduct,
characteristics and condition are incompatible with
the proper exercise of her legal profession, c)

as one publication giving rise to only one cause of action in
order to avoid multiplicity of actions and undue harassment
of the defendant by repeated suits by new individuals, as well
as excessive damages. Thus, the Single Publication Rule
provides that the statute of limitations runs from the date of
first publication of the article to the masses. Doe, Musto and
Wagner supra.
7 See Exhibit “A” - Grievance letter dated March 23,
2018.
8 See Exhibit “B” -- Amended Referee’s Report dated
April 29, 2002.

25a
Telasco is not trustworthy as an individual and
business associate, and d) Telasco is a clear and
present danger to the public as a licensed and
practicing attorney. 9
13. The Bar knew that the Grievance Letter10
together with the Amended Referee’s
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 5 of 300
Report11 and the Judgment of disbarment for
theft12 are predicated on The Bar’s intentional
fabrication and fraudulent misrepresentation of
facts to the Circuit Court and The Florida Supreme
court.
14. The Bar deliberately manipulated
the docket of each of the 5 cases it fabricated
against Telasco in bad faith, with the motive and
with the malicious purpose of giving the court,
prospective clients and business associates of
Telasco the false impression that Telasco is
untrustworthy,
shameless,
unethical,
9 See Exhibit “C” - Judgment of Disbarment dated July
11, 2002.
10 See Exhibit “A” - Grievance letter dated March 23,
2018.
11 See Exhibit “B” ■■ Amended Referee’s Report dated
April 29, 2002.
12 See Exhibit “C” - Judgment of Disbarment dated July
11, 2002.

26a
unscrupulous, unprincipled, should be shunned
and ostracized from all that is decent.13
B) Telasco is not a Public Figure
15. At all times material to this action, Telasco
is an individual and a private citizen of New York
State.
16. Telasco has been a permanent resident of
Rochester, New York for the past 12 years. New
York is where she resides with her family and
where she is employed. Telasco is also registered
to vote in Rochester, New York.
17. Telasco has not sought nor held any public
office nor governmental position within the
government.
18. Telasco has not sought nor acquired any
position of public power nor influence which would
give her the ability to protect herself apart from the
courts within the meaning of Gertz v. Robert Welch.
Inc. 418 U.S. 323 (1974) and New York Times v.
Sullivan. 376 U.S. 254 (1964).
19. Telasco has not sought any form of
publicity, public note nor prominence

is See Exhibit “B” and “C.”

27a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 6 of 300
outside of implementing her own business affairs in
private transactions.
20. Telasco is not a public figure within the
meaning of New York Times v. Sullivan. 376 U.S.
254 (1964) nor its progeny.
II. THE PARTIES
A) Plaintiff Telasco
21. Telasco is a natural person, an individual,
and a citizen of the United States.
22. Telasco is a naturalized Black Haitian
woman who left Haiti when she was 14 years old to
reside in the United States with her mother and 3
siblings. She is now 57 years old. She grew up in
Miami, Florida where she attended and graduated
from Notre Dame Academy High School, Barry
University with a Bachelor of Science Degree in
Management, and the University of Miami School
of Law with a Juris Doctor degree.
23. In 1992, Telasco passed The Florida Bar
Examination which qualified her to become a
licensed member of The Florida Bar.
24. While attending law school, she clerked

28a
with the Law Offices of Steven Cahen, where she
later became an associate with the firm. On
January 23, 1993 she opened her own firm where
she concentrated on family law, discrimination
law and civil rights litigation.
25. Telasco was passionate about helping those
who did not have a voice to gain recognition and in
so doing, developed that motto for her firm — and
named her website “All Peoples’ Law.”
26. She was particularly interested in the
Disparate treatment meted out to the Haitians,
who were being oppressed and stigmatized by those
who incorrectly believed, among other things, that
Haitians nationals carried the virus that causes

Aids.
27. Telasco’s mother, who spoke English
with a heavy Creole/Haitian accent, was
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 1 of 300
affected by this and many other unspoken cruelties.
This is the reason why Telasco dedicated her law
practice to helping others like her mother who
worked in non-professional jobs and who were
being discriminated against without cause.
28. Her dedication to the downtrodden was

29a
recognized by the United States District Court,
Southern District of Florida.14
29. Telasco was also frequently asked by the
local family law judges to assist them, on a pro
bono basis, as a guardian ad litem for divorce,
neglected and/or abused children.15
30. Additionally, she was commissioned to
teach seminars at the University of Miami Law
School. This was an honor afforded few graduates
within such a short time from graduation. Thus,
her competence was substantial and unchallenged.
31. Prior to the fabrication of the five cases by
The Bar against Telasco, she had over 80 active
cases with new, additional clients seeking her
representation on a regular basis.
32. Telasco spent thousands of dollars of her
own money to support her cases since most of her
cases were accepted on a contingency fee basis to
accommodate financially challenged clients.
33. When The Bar maliciously maligned
Telasco’s character secure a disbarment judgment
for theft against her, Telasco suffered an
immediate economic loss of over $150,000 at the
time of her resignation because she could not find
14 See Exhibit “Dl.”
16 See Exhibits “Dl” and “D2” - Certificate and Article.

j

30a
anyone prepared to represent her clients, given the
type of cases and the fact that the transfer of the
cases would not come with any funds. Thus, all of
the funds she used to finance her contingency cases
were lost.
34. Money was never a determining factor
into whether Telasco helped indigent
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 8 of 300
individuals who sought her help and whom she
believed truly needed her help.16
35. Prior to the fabrication of the five cases by
The Bar against Telasco, she had never been sued
for malpractice, had never been the subject of any
ethical violations or of a criminal complaint or
proceedings.
36. Telasco was in Good Standing with The
Bar, the courts and her clients when The Bar
fabricated and fraudulently secure a theft
disbarment judgment against her.
37. The Bar sought and secured a disbarment
judgment for theft against Telasco because a)
Telasco practiced law prudently and without fear of
repercussions for going against larger firms or big
corporations; and b) She refused to adopt The Bar,
16 See Exhibit “D5” Wilcox letter

31a
the members of its fraternity and social club’s view
that "She is lesser Than. ”
a) Telasco The Filmmaker
38. Telasco attended New York Film Academy’s
12 Week screenwriting and digital filmmaking
programs.17
39. Telasco’s first short film won best
directorial debut in the New York International
Film and Video Festival in California and Las
Vegas and Best Score in New York.18
40. When a filmmaker wins these awards, she
usually receives many offers to work as a director
and/or writer for the different studios that are privy
to the festival.
41. Telasco was contacted by one individual
for representation in 2005. This individual gave
her both his direct office number and his cell. When
this individual did not make any contact with
Telasco, she called him with respect to their
conversation that he would represent
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 9 of 300

17 See Exhibit “03” and “04.”
See Exhibits “D3” and “D4.”

32a
her. The individual told Telasco that he was no
longer interested and there is no need for her to
continue to attempt to further contact him.
B) Defendant The Florida Bar
42. The Bar is an unincorporated association
and a Florida State agency with branch offices in
most of the different cities in the State of Florida to
include the City of Miami, in Miami-Dade County.
43. The Bar serves as the official arm of the
Supreme Court of Florida. Its core functions are to
a) regulate the practice of law in Florida, b) ensure
the highest standards of legal professionalism in
Florida; and c) protect the public by prosecuting
unethical attorneys and preventing the unlicensed
practice of law.
44. The Bar is supposed to be an elite and
prestigious organization whose purpose during the
investigation of valid complaints, is to seek the
truth and handle investigations in a fair and
impartial manner; that is, it will not terrorize or
defame attorneys it is investigating at the behest of
persons, attorneys, law firms or international
organizations who are members of it fraternity
and/or social club.
45. The Bar is supposed to be an elite and
prestigious organization which
should not be
engaged in a) fraudulently fabricating cases

33a
against anyone, b) purposefully failing to give
notice of the pendency of a grievance meeting to the
attorney who is the subject of said grievance
meeting, c) failing to give notice of the pendency of
disbarment proceedings to the attorney who is the
subject of said proceedings, or d) failing to provide
said attorney with a copy of the referee’s report and
judgment of disbarment for theft.
46. Because society and the public view The
Bar as an elite and prestigious organization,
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 10 of 300
any judgment of wrongdoing, more specifically a) a
judgment of disbarment for theft against an
attorney, b) its finding that Telasco’s conduct,
characteristics and condition are incompatible with
the proper exercise of her legal profession, c) its
finding that Telasco is not trustworthy and d) its
finding that Telasco is a clear and present danger
to the public as a licensed and practicing attorney
will be accepted without question and with
complete deference to the validity of said judgment
because of the inherent view by society and the
public that The Bar will always conduct its
business in a fair, truthful, just, impartial and
honorable manner with respect to all of its
members.
47. The Bar is supposed to be an elite and

34a
prestigious organization yet it negligently and/or
maliciously published the Grievance Letter dated
March 23,
2018,19 which incorporated the
Amended Referee’s Report20 and Judgment of
Disbarment for theft against Telasco21 to The New
York Bar
even though it knew that these
documents which convicted Telasco for theft were
fabricated.
48. The Bar knew or had reason to know
that the actions it had taken against Telasco would
destroy her opportunity to be admitted to any other
State Bar and foreclose other opportunities such as
being able to work as a director and/or writer in the
entertainment industry.
49. The Bar's defamation disparaged Telasco’s
character and renders her skills as an attorney and
filmmaker worthless.22
III.

DISCOVERY OF THE 5 CASES THE
BAR FABRICATED AGAINST
TELASCO

19 See Exhibit “A” -- Grievance Letter dated March 23,
2018.
20 See Exhibit “B” -- Amended Referee’s Report dated April
29, 2002.
21 See Exhibit “C” - Judgment of Disbarment dated July
11, 2002.
22 See Exhibit “Wl” through “W5” Telasco’s Federal
Income Tax return.

35a

50. In 2008, Telasco discovered that The Bar
had fabricated 5 cases against her and
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 11 of 300
the cases were available to the public, including
any prospective business associates, partner and
employers.
51. The docket of the 5th fabricated cases
shows that as of 2008, it had been reviewed 32
times.23 The other 4 files and Telasco’s Florida Bar
file do not have this counting feature. Therefore,
Telasco cannot ascertain how many times the
falsehoods contained therein were viewed by the
public and prospective business associates and
employers.
52. The Bar keeps a copy of Mr. Wald’s
renewed petition in Telasco’s in-house Florida Bar
file.24 This petition reflects the proper caption and
case number of the fifth case and directs attention
to the docket of this 5th case.
53. This petition wrongfully alleges that the
state attorney’s office was handling a criminal case
against Telasco with respect to the source of the
23 See Exhibit “M2.”
24 See Exhibit “Ql.”

36a
settlement funds which were now in Mr. Wald’s
possession.
54. The funds referred to in the 5th case are
same the funds that Telasco supposedly stole from
her clients and was the basis for Telasco
disbarment for theft.
55. The Florida Bar kept this document in
Telasco’s file even though it knows that no such
criminal case exists against Telasco.
IV. UNDISPUTED MATERIAL FACTS
COMMON TO ALL COUNTS
A) The Discrimination Cases
56. In 1994, one year after Telasco opened
her office, she filed an action against Sheraton ITT
a/k/a
Wyndham
Hotels
for
employment
discrimination on behalf of 8 Haitian employees.
Seven of these clients were women, who worked as
maids, and a man who worked
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 12 of 300
as a janitor.
Prior to Telasco’s agreement to
The
Equal
represent the
8
individuals,
Employment
Opportunity
Commission
had
concluded that there was no discrimination in all 8
cases.

37a

57. Sheraton ITT was represented by Holland
& Knight, an international law firm with law
offices located in different cities nationwide and
abroad.
58. During the proceedings, one of the two
attorneys from Holland & Knight who represented
Sheraton ITT informed Telasco that Holland &
. Knight’s client Sheraton ITT really disliked her.
59. Telasco’s response was that she was not
participating in a popularity contest and that all
she cares about was doing her job and doing it well.
60. During settlement negotiations, Sheraton
ITT had made an offer to settle all 8 cases for
$10,000. Sheraton ITT characterized the $10,000
offer as its payment to abate the nuisance that
they regarded both Telasco and her clients.
This sum would allow each client $1,000.00 and
$2,000.00 would go to Telasco for her fee.
61. With the consent of the 8 clients, Telasco
refused the nuisance offer.
62. After five years, one case was dismissed
after a full administrative evidentiary hearing.
Two jury trials resulted in a finding of
discrimination but gave no monetary award. The
second trial resulted in a finding of discrimination
and a $50,000.00 punitive damage award. Just

38a
before the beginning of the third trial, Sheraton
ITT offered and settled all the cases for
$300,000.00.
63. Sheraton ITT claimed that it was in the
process of filing bankruptcy and did not have the
$300,000 readily available.
64. A payment plan of six payments of
$50,000 was negotiated with Sheraton ITT to be
made each month for 6 months.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 13 of 300
65. Telasco’s $50,000punitive damage win in
the second trial was reported by the Miami Herald
newspaper. This win was an embarrassment for
Holland & Knight and Sheraton ITT.
66. During the pendency of The Bar’s grievance
case against Telasco, Telasco received a call from a
woman asking if Telasco’s office was still open.
When Telasco checked the number by hitting *69,
the number was identified as an out of state office
for Holland & Knight. To date, Telasco remains
puzzled as to why Holland & Knight Atlanta’s office
was checking to see if she was still practicing law.
67. These discrimination cases became the

39a
predicate for everything The Bar would fabricate
against Telasco to severely malign her character
and destroyed her career and future.
B) The First Case Fabricated bv The
Florida Bar
CASE I. File 2000-70.271File closed with no disciplinary action
a/k/a Florida Supreme Court Case No.: Case SC011198. Opened 12/09/1999 & Closed on 10/06/2002
68. On or about January 1999, Telasco
settled the discrimination cases on behalf of her 8
Haitian clients for $300,000 payable over 6 months
at $50,000 per month. With the participation of a
professional Creole translator, the settlement
agreement was explained to the clients, and they
all initialed each page as well as signed the
agreement.25
69. During the pendency of the litigation,
Telasco incurred costs for translation services,
depositions, and additional customary and usual
costs associated with preparing and participating
in the trial of the cases since none of her clients
were in a position to help defer the costs.

25 See Exhibit “E” - Professional Creole Translator’s
affidavit.

40a
Additionally, pursuant to the contingency fee
agreement, Telasco was entitled to 33.33% of the
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 14 of 300
settlement.
After the costs and fees were
calculated, Telasco realized that each client would
have received approximately $6,000.00 each.
70. Realizing that this sum would not affect
the change her clients were hoping for, Telasco
unilaterally decided to reduce her fees by over
$31,552.30 so that her clients would each net
$10,000.00. This credit is confirmed by Mr. Carlos
J. Ruga, The Bar’s auditor.26
71. Telasco’s altruism was based on the fact
that she too is Haitian and had witnessed
firsthand, through her family, especially her
mother, how Haitians had been discriminated
against in Miami, Florida, during the 1980s and
1990s.
72. Telasco prepared a revised settlement
statement with the credit and with the assistance
of the translator, explained the new figures to her
clients and gave each of them a copy of the
settlement statement.27 She also explained that no
26 See Exhibit “F” - Ruga’s Affidavit page 1 number 4.
27 See Exhibit “E” - Affidavit of Creole Translator.

41a

funds would be paid out until the full settlement
amount had been received.
73. After receiving the full settlement payment
from Sheraton ITT, Telasco sent a letter to the 8
clients advising them of the time and date they
were to collect their settlement checks.28
74. Shortly thereafter, Fontaine Baptiste, the
only male client out of the group and the individual
who initially brought the case to Telasco, informed
her that he did not want to share the settlement
funds with the one client whose case was dismissed
after the evidentiary hearing and the client whom
the jury find discrimination but awarded no
damages.
75. Mr. Baptiste was a part of the group
decision made initially, that they would all share in
the winnings or losses and knew too that Telasco,
with the consent of the clients who lost, had
decided to appeal those two cases. Mr. Baptiste
then demanded, without the approval of the
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 15 of 300

28 See Exhibit “G” - letter informing 8 clients that full
payment has been made and the time they needed to come in
to pick up their settlement checks.

42a
others, that Telasco give him a larger share than
the others since he was the one who had instigated
the action. Telasco refused to honor his requests.
76. Prior to Telasco’s acceptance of the case,
Mr. Baptise and the other 7 clients had attempted
to secure the services of another attorney, Jonathan
D. Wald (a Caucasian attorney), who advised them
that it was a hard case to prove since EEOC had
made a previous finding that there was no
discrimination by Sheraton ITT and most
importantly, he demanded $5,000.00 from each of
the 8 clients as a retainer which they did not have.
With Mr. Wald’s decision not to represent them, the
clients then sought Telasco’s representation.
77. After Telasco refused to give Mr. Baptiste a
higher payout, he took his itemized settlement
statement to Mr. Wald, who then demanded that
Telasco provide him with a copy of the confidential
settlement agreement between the 8 clients and
Sheraton ITT and sought access to her files,
claiming a need to review her costs and
expenditures in the cases against the itemized
settlement statements she had given to her 8
Haitian clients.
78. After Telasco refused his request, Mr. Wald
sent a letter to The Bar on November 24, 1999
stating in part:

43a
“I am [formerly] requesting on behalf of Mr.
Baptiste that the Florida Bar immediately file
a formal grievance against Ms. Telasco and
that you [the Bar] devote its full attention and
resources to this matter. I would urge you to
perform an immediate
and detailed
accounting in this matter, including requiring
Ms. Telasco to provide you with copies of all
invoices and bills relating to the costs claimed
on the settlement statement.
I would
appreciate it if you would contact me upon
your receipt of this letter to let me know how
the Bar will proceed and to further discuss
this matter.”29
79. On December 9, 1999, The Bar forwarded
Mr. Wald’s letter to Telasco and
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 16 of 300
requested that she respond.30
Immediately
thereafter, The Bar began an investigation (File
2000-70.271) into the validity of the costs and
expenses Telasco incurred in the 8 cases. The
Florida Bar further added the charge that even if
the costs and expenses were incurred, Telasco had
failed to communicate them with her clients. Thus,
29 See Exhibit “HI”, page 1, paragraph 4 — Jonathan
Wald’s Letter.
30 See Exhibit “H2” — Defendant The Florida Bar’s Letter
to Telascorequesting a response to Mr. Wald’s complaint.

44a
Mr. Wald’s letter propelled the investigation
against Telasco, not complaints from the 8
Haitian clients.
80. On July 6, 2000, after providing all
executed
retainer
agreements,
confidential
settlement agreements, clients bill of rights, and
cashed firm checks reflecting payment to the Creole
translator hired exclusively for the case, The Bar
assigned Mr. Carlos J. Ruga to audit Telasco’s
financial records by reconciling her receipts, cashed
checks, expenses and invoices with the costs and
expenses outlined in the settlement statement.
81. By that time, Mr. Ruga had been working
with The Bar for over 15 years and had conducted
over 500 audits for The Bar.
82. Mr. Ruga further compared Sheraton ITT
costs and expenses, as paid to Holland & Knight, to
expenses.
Telasco’s costs and
83. When the audit was completed, Mr. Ruga
issued his findings on July 14, 2000. The report
stated that all of the costs and expenses listed in
the settlement statements had been incurred and
properly paid for. Mr. Ruga also made the finding
that Sheraton ITT’s costs and expenses were
greater than Telasco’s expenditures in the 8
cases.31
31 See Exhibit “I” - Mr. Ruga’s audit report.

45a

84. The Bar ignored Mr. Ruga’s report and
refused to give a copy of the report to Telasco
because the report completely exonerated Telasco
of Mr. Wald’s charges and confirmed that there has
been no violation of any rules by Telasco.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 17 of 300
85. Ignoring its own auditor’s report, The Bar
immediately assigned Joseph Ganguzza, the
chairman of The Bar’s Grievance Committee, and a
friend of Mr. Wald, to determine whether there
was probable cause for Telasco’s disbarment.
86. By the time Telasco met with Mr.
Ganguzza, she had been practicing law for over 7
years, had over 80 active cases, had never been the
subject of a malpractice action and had never had a
bar complaint filed against her. Moreover, Telasco
/had been nominated and received numerous
awards for her pro bono work in the community.32
87. Despite Telasco’s good standing with The
Bar, and the fact that she spent 5 years working
without compensation on behalf of the 8 Haitians
clients, Mr. Ganguzza, during his initial meeting
with Telasco, informed her that in his opinion, she
had made too much money on the cases.
32 See Exhibits “Dl” and “D2” - certificate and article.

46a

88. Mr. Ganguzza stated that he had reviewed
all of the retainers, bill of rights and settlement
agreements between Telasco’s office and the 8
clients but that he could not be sure that the
signatures on the documents were in fact those of
Telasco’s 8 clients. He then advised Telasco that he
would close the investigation into the matter if she
agreed to give the full $300,000 settlement funds to
Mr. Wald for distribution to Telasco and her 8
clients. Mr. Wald would have full discretion to
distribute the funds as he saw fit and of course he
would be paid for his services from the funds.
Telasco did not accept this offer.
89. The Bar’s refusal to acknowledge its own
auditor’s report and the proposal presented by Mr.
Ganguzza frightened Telasco because she realized
that The Florida Bar’s investigation was not
grounded in an effort to seek truth.
90. Neither Telasco nor her associates
including Mr. Ruga could believe how she was
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 18 of 300
being treated by The Bar.
91. Telasco realized that she was not going to

47a

survive the investigation because she was not
politically connected and she was not a member of
The Bar’s fraternity or social club.
92. Telasco requested that Judge Scola, the
referee assigned to her disbarment case, issue
subpoenas for depositions. Thereafter, Telasco took
the depositions of Mr. Wald, Mr. Ganguza, Mr.
Ruga and most of her 8 clients in order to
memorialize and perpetuate the testimony and
actions against her.33
93. Telasco also obtained and submitted an
affidavit from her Creole translator along with the
checks paid to him in hopes of quashing the new
developing claim of forgery and failure to
communicate her costs.34
94. All of the depositions were noticed, taken
and paid by Telasco.
95. Once Telasco had taken the depositions, she
retained Mr. William Ullman, Esq. to represent
her, based on the recommendation that he had
represented many attorneys before The Bar and he
had a great rapport with The Bar, which Telasco
felt she needed, given Wald’s perceived ability to
get The Bar to keep on persecuting her even after
33 See Exhibit “Jl” •• resignation letter citing the different
depositions.
34 See Exhibit “E” - Affidavit of Creole Translator.

48a
The Bar’s own auditor had absolved her in his
written report of any wrong-doing.
96. On October 26, 2001, Mr. Ullman asked
Telasco to meet with him in his office. When she
arrived, he informed her that he had brokered a
settlement with The Bar.
97. Mr. Ullman handed Telasco a copy of a
boiler plate Petition for Disciplinary Resignation
and an Affidavit prepared by The Bar which had
been faxed to him for Telasco’s signature. The
Florida Bar ID and date appear clearly on the left
top corner of the documents.35
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 19 of 300
98. The October 26, 2001 petition for
resignation and affidavit were assigned a new case
number 2002-70,480 which identify the petition as
being created in 2002 instead of 2001.36
99. This petition for resignation and affidavit
recites the same charges that are in case number
2000-70,271, the original, first case.37 That is, “

35 See Exhibit “Kl” and “K2” - Boiler plate petition for
resignation and affidavit.
36 See header of petition and affidavit attached as Exhibit
“Kl” and “K2”
37 See Exhibit “Kl” pages 1-2, paragraph 4.

49a
Telasco failed to properly disburse funds and
allocate costs in the settlement to the 8 clients.”38
100. Telasco was advised by Mr. UUman that
she should accept and sign the petition and the
affidavit The Bar had prepared for her signature
because doing so would make her eligible to apply
for readmission to The Bar after 3 to 5 years.39
101. Mr. Ullman further advised Telasco that if
she accepted the settlement, The Bar would issue a
paralegal certificate to her because “The Bar didn’t
want to hurt her.”
102.
This
document
was
prepared
approximately 15 months after The Bar received its
auditor’s report exonerating Telasco.40 That report
had concluded that all fees and costs incurred were
justified, the very reason the matter had been
referred to The Bar by Mr. Wald.41
103. Paragraph 4 (b) of this petition reflects
that for the almost 10 years in practice at that
time, Telasco had never been disciplined,
reprimanded, investigated, sued for malpractice
nor prosecuted for any unethical or criminal
behavior.42
38 See Exhibit “Kl” page 2 (a).
39 See Exhibit “Kl” page 2, paragraph 5.
40 See Report attached as Exhibit “I”
41 See Report attached as Exhibit “I”
42 See Exhibit “Kl” page 1-2, paragraphs 4.

50a

104. The stress of the 28-month long
investigation had taken its toll on Telasco’s mental,
emotional, physical wellbeing and had drained her
finances.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 20 of 300
105. On October 30, 2001, one working day
after The Bar presented Telasco with the Petition
and Affidavit for her signature, and without the
assistance of Mr. UUman, Telasco completed her
own permanent resignation package which
included the notice of resignation, letter of
immediate and permanent resignation from the
Bar and notice of filing deposition, the numerous
depositions she took in the case, and the
translator’s affidavit. Telasco’s resignation packet
made it clear that she wanted nothing more to do
with The Bar, including not accepting its offer to
downgrade her status from lawyer to paralegal.43
106. On or around that same time, disappointed
with Mr. Ullman’s representation,
Telasco
requested that Mr. Ullman withdraw from her case.
107.
On November 6, 2001, Telasco hand
delivered the notice of filing settlement funds, a
43 See Exhibit “Jl” and “J2” -- Letter of resignation and
hand-delivery receipt.

51a

cashier’s check payable to The Florida Supreme
Court in the amount of $49,147.70 this sum was for
the funds due and owing to the 8 clients (less the
$31,552.30 credit that Telasco had been willing to
give them before)44 which had never been collected,
to Judge Robert N. Scola. Judge Scola’s Bailiff,
Jermaine Jones, signed the delivery receipt.45
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 21 of 300
108. On November 7, 2001, Telasco signed Mr.
Ullman’s Motion to Withdraw as her counsel and
Mr. Ullman signed said motion on November 8,
2001. That same day, Mr. Ullman faxed and
mailed the Motion to Withdraw to The Bar and the
Referee, Judge Scola.46 Telasco did not give Mr.
Ullman a copy of her resignation package or any
other documents she served on The Bar and Judge
Scola.
109.
Telasco has kept all documentation
supporting what occurred during the so-called
investigation, on the internet at allpeopleslaw.com
for the past 19 years in hopes of combatting The

44 See Exhibit “F” page 1.
« See Exhibits "Ll,” “L2“L3” and “L4” Letter of
resignation, notice of filing settlement funds, settlement
cashiers’ check and hand-delivery receipt.
46 See Exhibit “Ml” - Bill Ullman Motion to Withdraw.

52a
Bar’s libelous per se
perpetually defaming her.

action

which

is

110. The Bar and all parties involved are well
aware of the website and they have never
challenged the sequence of events nor the
documents posted in support thereof. As a matter
of fact, The Bar has sent Telasco numerous emails
through this website.47
C) Telasco’s Resignation
111. At the time that Telasco submitted her
resignation and the settlement funds to The Bar for
distribution to her former clients, The Bar had been
investigating Telasco for 28 months.
112. Telasco resigned because she realized that
truth had nothing to do with The Bar’s
investigation against her and she will not succeed
against The Bar.
113. Telasco is also well aware that prolonged
stress could damage her irreparably, no matter how
strong or courageous she is.
114. Telasco’s decision to resign was grounded
in the fact that there is a history of mental illness
in her family.
47 See Exhibit “Q3” - Defendant The Florida Bar News
Letter to Telasco via “Allpeopleslaw.com” website.

53a

115. The mental illnesses were precipitated by
stress, humiliation and hopelessness.
116. Telasco witnessed the circumstances which
led to one of her brothers and her uncle’s mental
illness.
117. Telasco’s uncle, a college professor in
Haiti, had his first mental illness episode after he
arrived into the U.S. seeking a better life for his
children. He did not speak English and the only
employment he could secure was working as a
janitor. The mistreatment of Haitians at
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 22 of 300
that time and the humiliation he endured took him
over the edge of reality. He had to be admitted into
a mental facility. He has been released but is still
taking medication to control his illness.
118. Telasco also witnessed her little brother, a
police officer who refused to participate in a cover
up, after a young African-American teenage boy
was beaten senseless by the police and ended up in
the hospital. When her brother refused to fabricate
a police report to claim that the teenage boy
committed assault and battery against the police
officers and resisted arrest, he was called a “rat.”

54a
He was threatened that he would get a bullet and
he wouldn’t see it coming.
119. Telasco’s brother had no choice but to quit
the force to protect himself. Thereafter, he was
unable to secure any work with a police
department. He could not get a job to support
The stress, hopelessness, and the
himself.
emasculation of his manhood took its toll on him,
leading to a mental breakdown. Now, he cannot
function without his medication. He has been
forever changed.
120. Moreover, Telasco’s cousin, Cedric Telasco,
was 21 years old weight 115 pounds stands at 5’7”
was assassinated by the Lauderhill police on his
front lawn. His body to include his face were
riddled with 26 bullets. The police department
used his mental illness and the Telasco family’s
mental illness history to escape liability.48
121. The high level of stress imposed on Telasco
by The Bar caused her to lose her hair. She had
regular anxiety attacks. The doses of Xanax she
was prescribed during The Bar’s terror on her life
had to be doubled. However, the increased dosage
did not cure her anxiety attacks. As a matter of
fact, the attacks worsened. Telasco was a nervous
wreck.

48 See Article attached as Exhibit “V.”

55a
122. Immediately before Telasco resigned, she
felt like she was losing a grip on reality.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 23 of 300
Mentally, she was not present, i.e., she would go to
the gas station to get fuel for her vehicle, she would
go inside the station pay for the fuel and then get
back into her car and drive away. Within a few
minutes she would see her fuel light on and realize
that she forgot to put fuel in her car. She would
then go back to the gas station to fill up her tank.
This is just one example of her mental state.
Furthermore, Telasco was not present for her
children because of her damaged mental, emotional
and physical health. She knew that if she remained
in the unbeatable and endless war created by The
Bar, she might suffer the same fate as her brother
or worse.
123. After Telasco submitted her resignation to
The Bar, The Bar sent ill advised, Haitian
individuals to her office, who claimed to be in need
of legal services even though these persons were
well aware that Telasco is no longer licensed to
practice law. At that time, Telasco owned a one
story building on Biscayne Boulevard. Her office
was located in the front section of the building and
her apartment was located in the back of the
building.

56a
124. Since validly signed retainer agreements
were dismissed by The Bar, Telasco realized that if
there is a claim against her that she was practicing
law without a license, it will be her word against
the word of her accuser because the Bar had
already shown her that truth is irrelevant in the
proceedings it filed against her.
125. Telasco was highly concerned that in the
event she is accused of practicing law without a
license, The Bar would surely find her guilty and
she could lose her freedom.
126. Telasco could no longer live in her building
because she could not afford the utilities. She had
to move in with her mother.
127. Telasco lived in little Haiti (among the
people she served) and did groceries in that area.
While shopping,
a Haitian individual accused
Telasco of preferring to steal from people rather
than working to make money.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 24 of 300
128. Telasco was relieved that her children did
not bear her last name because she did not want
the shame The Bar wrongfully placed on her to
follow them.
129. All employment opportunities in Miami

57a
were destroyed.
130. In early 2002, Telasco left her family and
moved to Queens, New York where she worked as a
legal secretary while she attempted to figure out
what to do to survive and to continue to take care of
her family.49
131. Telasco’s daughter who was 6 years old
began to suffer from anxiety attacks and
abandonment issues. She was seen by her school
psychologist to help her cope with the fact that
Telasco suddenly disappeared from her life.
Telasco’s daughter still carries the remnants of that
horrible experience.
132. Telasco’s son had to quit St. John’s
University because she could not afford to pay his
tuition, and she was not eligible to apply for a loan
due to her damaged credit and the fact that she
was unable to prove her income. Telasco’s son quit
the second semester of his third year.
133. Telasco’s son attempted to go back to
college and finish his degree, but St. John
University will not release his grades until he pays
the second semester of his third year and his fourth
year which he did not attend. Thus, he is still
suffering from The Bar’s attack on Telasco’s life.

49 See Exhibit “01” - Rent checks for Queens, New York
apartment

58a
D) Telasco and Her Family’s Move to
Rochester, New York in 2007
134. On July 2007, Telasco loaded a rental
moving truck with her daughter, elderly mother,
her mentally ill brother, and her pets and drove the
1,600 miles to Rochester, New York.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 25 of 300
135. Telasco did not have any support system
in Rochester. However,
in her estimation,
Rochester was the least expensive place she could
move to and it had an excellent affordable Catholic
school system.
136. Telasco also worked as a legal secretary
for several months while in Rochester until her
employer conducted an investigation into her
background and discovered that Telasco was an
attorney who had been disbarred by The Bar for
stealing her clients’ money.
137. Telasco was ridiculed, shamed, and
humiliated by her employer. She was treated like a
Her employer was now
common criminal,
concerned that she had given her access to
information that she should not have because of the
judgment of disbarment for theft which implies
that Telasco is dishonest, of low moral character,
and should not be trusted.

59a

138. Telasco had to quit her secretarial job.
139. After this humiliating experience, Telasco
stopped looking for work. She sold some of the
properties which she owned in Miami and used the
money from the sale to purchase several
dilapidated properties in Rochester which she
repaired and rent.
140. Telasco makes under $20,000 per year
from managing the properties.30
E) Application for Admission to The New
York Bar in 2008
141. During the month of September 2008,
Telasco decided to apply for admission to the New
York Bar.
142. On or around the first week of September
2008, Telasco, pursuant to the legal requirement
for admission by The New York State Bar, made
a request for a grievance letter and a letter of good
standing from The Florida Bar. The Bar did not
issue a letter of good standing.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 26 of 300
so See Exhibit “Wl,” “W2“W3,” “W4,” and “W5 attached
as 2006, 2008, 2017, 2018 and 2019 Tax returns.

60a

143. On or about September 24, 2008, Telasco
received the grievance letter dated September 22,
2008 from The Bar.51
144. Upon review of the grievance letter,
Telasco for the first time discovered that instead of
the one case in which she resigned, there were a
total of 4 cases listed in the grievance letter. The
Fifth Case which The Bar fabricated against
Telasco was not included in the letter. Telasco has
included the fifth case in her complaint because
this case reflects the extent of The Bar’s
power and its abuse of the court system to
maliciously destroy Telasco.
F) The Contents of the Cases Fabricated
by The Florida Bar
145. Telasco requested a complete copy of
the 4 cases from The Florida Supreme Court. Upon
review of the cases, Telasco discovered the
following:
1.
The First Case Fabricated bv The
Florida Bar Against Telasco

case52

146. Upon review of the docket of the first
where Telasco fully participated and

51 See Exhibit “A2” - Grievance Lettter dated September
22, 2008.

61a
submitted her resignation package, Telasco
discovered that The Bar, described Telasco’s
resignation package as a “LETTER with enclosed
documents.”53 It filed an incomplete, poorly copied,
bastardized version of the resignation package
without any of its attachments.54
147. The docket further reflects that The Bar
knowingly and deliberately made no notation of the
notice of filing the settlement funds or its receipt of
the cashier’s check55
2. The Second Case Fabricated by The
Florida Bar Against Telasco
CASE II. File 2002-70.480
File closed with no disciplinary action
a/k/a Florida Supreme Court Case No.: Case SCOl2893. Opened 12/06/2001 & Closed on 10/08/2002
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 27 of 300
And Petition for Resignation.
148. The docket of the second case reveals
that on December 6, 2001, eleven months after

62 See Exhibit “Nl” - Docket of the first case.
53 See Exhibit “Nl” - Docket of the first case
5,1 See Exhibit “Nl” - Docket of the first case.
55 See Exhibit “Nl” - Docket of the first case.

62a
Telasco submitted her resignation package to
Judge Scola and The Bar, The Bar created a new
case bearing case number SC01-289356 and
intentionally filed a bastardized copy of Telasco’s
resignation letter without any of the attachments.57
149. The docket of this second case noted
that Telasco’s resignation was filed by her former
attorney Bill Ullman whom she had retained to
represent her in the original case No. SC01-1198.58
When The Bar used Mr. UUman’s name as Telasco
attorney and the filer of the bastardized copy of
Telasco’s resignation on December 6, 2001, Mr.
Ullman was no longer Telasco’s attorney and could
not have file the bastardized copy of her resignation.
150. On June 18, 2002, ten (10) months after
The Bar opened this second case, it voluntarily
dismissed the case claiming that Telasco failed to
file a proper petition for resignation.
151. The Bar did not give any notice to
Telasco that her petition for resignation was
defective. Had Telasco received notice from The
Bar that her resignation package was defective, she
would most certainly have responded and corrected
any errors.

56 See Exhibit “N2” -- Docket of second case
57 See Exibit “M3” -- distorted letter of resignation.
58 See Exhibit “N2” — docket of the second case.

63a
152. As in the first case, the docket of this
second case made no mention of the fact that
Telasco submitted the cashier’s check to The Bar
for distribution to her former clients.59
3. The Third Case Fabricated bv The
Florida Bar Against Telasco
CASE III. File 2002-70.505
File closed with disciplinary sanction imposed
a/k/a Case SCOl-2423 opened 11/7/2001
& closed 07/01/2002
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 28 of 300
Petition for Emergency Suspension
153. The Bar opened this third case one day
after Telasco served her resignation and turned
over the cashiers’ settlement check to it for
distribution to her 8 former clients.
154. As of the date this third case was
opened, November 7, 2001, Telasco had closed her
office and was no longer practicing law, as she had
resigned on October 30, 2001.60 . Telasco was still
living in Miami at the time this case was opened
but she did not received a copy of this emergency
petition.
59 See Exhibit “N2” - Docket of second case.
60 See Exhibit “N3” - Docket of third case.

64a

155. During the time frame of this case,
Telasco had moved to New York on March or April
2002 for approximately 9 months.61 She returned
to Miami, Florida on October or November 2002
and went back to New York with her 2 children in
November 2003.
156. Telasco remained in Harlem New York
until August 2004.62
During this period, She
attended and completed the Screenwriting and
Digital Filmmaking Programs at the New York
Film Academy.63
157. This third case was closed within 9
months of The Bar opening it. Again, this case
made no mentioned that Telasco submitted the
settlement funds in the form of a cashiers’ check to
The Bar for distribution to Telasco’s 8 former
clients.
4. The Fourth Case Fabricated bv The
Florida Bar Against Telasco
CASE IV. File 2002-70.726
61 See Exhibit “Ol” Money order receipts for rent in
Queens, New York (Telasco was unable to find all the
receipts).
62 See Exhibit “02” Money order receipts for rent in
Harlem, New York. (Telasco extended her lease for 4 months.
63 See Exhibit “03” diploma for Screenwriting and
filmmaking.

65a
File closed with disciplinary sanction imposed
a/k/a Case SC02-44 opened 1/8/2002
& closed 10/25/2002
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 29 of 300
158. This case was opened several months
after Telasco resigned. She was never provided
with any copies of The Bar’s Petition for
disbarment. Like the other three cases, it stems
from the same subject matter of the first case, the
same 8 Haitian clients4 and the same costs and fee
issues of which Telasco was absolved of by The
Bar’s own auditor, Mr. Ruga.64
159. The docket sheet of this disbarment
case reflects the following:65
a) The Bar filed a complaint seeking
disbarment of Telasco with a request for
admissions on January 8, 2002 which it claimed it
sent to Telasco via certified mail which she
allegedly received on January 14, 2002.
b) Telasco did not receive this complaint.
Although Telasco had already resigned, she would
have responded to The Bar’s claim as indicated in
her continued fight in the first case and by keeping

64 See Exhibit “I” Mr. Ruga’s auditor report.
65 See Exhibit “N4” - docket of fourth case.

66a
her website active with copies of the documents
submitted with her resignation package.
c) On February 28, 2002 The Bar filed its
Motion for Order Deeming Matters Admitted on the
grounds that Telasco failed to file a response to its
request for admissions.66
d) On March 4, 2002, one (1) working day
after The Bar filed this Motion, Judge Scola
entered an Order Granting The Bar’s Motion for
Order Deeming Matters Admitted because Telasco
failed to respond.67
e) The Florida Bar purposely omitted its
Motion for Order Deeming Matters Admitted
(Exhibit “PI”) and the Order Granting said Motion
(See Exhibit “P2”) in the docket of this case.68
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 30 of 300
f) The docket of this case does not reflect
The Bar’s Motion for Order Deeming Matters
Admitted and the Order granting said Motion
because such a notation would reveal that The Bar
in fact obtained the judgment of disbarment for
theft against Telasco ex parte, by default and in
violation of well-established rules.
66 See Exhibit “PI” — Motion for order deeming matters
admitted.
67 See Exhibit “P2” -- Order on Motion deeming matters
admitted.
68 See Exhibit “N4” - docket of the fourth case.

67a
g) The docket only reflects that a complaint
and request for admission were filed on January 8,
2002.
It makes no reference to any other
documents.
h) The docket further noted that on May 3,
2002, 7 volumes of records and transcripts were
generated during The Bar’s investigation for
disbarment for theft against Telasco.
i) When Telasco received the complete copy
of the records she ordered from the Florida
Supreme Court, she discovered that the 7 volumes
of material recorded were comprised only of all of
the records, transcripts and documents Telasco
generated and had attached to her resignation
package.
160. By noting the 7 volumes of material on
the docket of the disbarment case, The Bar made
sure that the docket gives the public and any
potential business associates of Telasco the false
impression that it conducted an extensive, fair,
impartial investigation in its disbarment
proceedings for theft against Telasco.
161. The Bar deliberately gives the public
the false impression that the order of disbarment
for theft was not obtained ex parte and by default.
a. Mr. Ruga’s Affidavit Dated October 30.
2001

68a
162.
On October 30, 2001,
executed an affidavit.69
163.
number.

Mr. Ruga

The Affidavit does not bear a case

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 31 of 300
164. Paragraph 4 of the Affidavit reflects
that Mr. Ruga used the settlement statements
Telasco provided to her clients to enable him to
make the finding that Telasco gave a $31,552.30
credit to her former clients so that each client
would receive $10,000.00 from the settlement.70
165.

Paragraph 5 of the Affidavit states

that
a) Telasco’s clients refused to accept the
settlement;
b) her clients did not receive any funds from
her
c) her clients requested
itemizing the costs charged; and

a

statement

d) when Telasco refused to provide this
information they [her clients] filed a complaint with
The Bar.

69 See Exhibit “F” - Mr. Ruga affidavit dated October 30,
2001.
70 See Exhibit “F” -Ruga’s affidavit page 1, paragraph 4.

69a
166. The facts as stated in paragraph 5 of
the affidavit are incorrect. In this paragraph, The
Bar has blatantly changed the facts as they exist in
order to justify it pursue of a judgment of
disbarment for theft against Telasco.
a) Telasco’s 8 former Haitian clients simply
failed to come on the date they were supposed to
come in to pick up the settlement funds because
Mr. Wald informed them that they should not pick
up the check because Telasco’s cost and expenses
were not real; that Telasco had pocketed their
money; and The Bar would make Telasco return
the funds she had stolen from them.
b) At no time did Mr. Wald or The Bar
inform the 8 clients of Mr. Ruga’s report71 which
exonerate Telasco;
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 32 of 300
c) Telasco’s clients did not receive any funds
directly from Telasco because she submitted the
settlement funds to The Bar in the form of a
cashiers’ check for distribution to her former
clients.72 Thus, The Bar was the only entity who
could have distributed the funds.
71 See Exhibit “I.”
72 See Exhibit “L2,” “L3,” and “L4” notice of filing and
cashiers’ check.

70a
d) The Bar’s letter dated April 24, 2002
acknowledges receipt of the funds from Telasco.73
e) Each of Telasco’s 8 clients received a
settlement statement from Telasco. It is this
settlement statement that Mr. Ruga used to
conduct his investigation to enable him to arrive at
the conclusion that Telasco did not steal from her
clients and she in fact gave a credit of $31,552.30 to
her clients so that each of them would receive
$10,000 instead of the $6,000 they each would have
received.
e) Mr. Wald also refers to the settlement
statement in his complaint letter to The Bar
demanding that The Bar file a grievance action
against Telasco because in his opinion, Telasco’s
costs and expenses as itemized in the settlement
statement were not real and the $31,552.30 credit
Telasco gave to her clients was suspect.74 Thus,
the statement that Telasco refused to give her
client a settlement statements is completely
false.
f) Futhermore, Telasco’s clients did not file
complaints against her. They were elated at the
fact that Sheraton ITT change the procedure to be
followed when any hotel employees in the same
position as the 8 clients file a discrimination

™ See Exhibit “L5”
74 See Exhibit “HI” - Mr. Wald’s complaint letter.

71a
complaint against their supervisors.
procedure gave them a voice.

This new

167. Mr. Wald, under the guise of helping
Mr. Baptiste, filed a complaint against Telasco with
The Bar and demanded that grievance proceedings
be filed against Telasco.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 33 of 300
168. Ms. Venicia Soupart, one of Telasco’s 8
clients, filed her complaint stating that Telasco
kept her settlement funds on March 18, 2002 which
is approximately 17 weeks after Telasco gave the
settlement funds to The Bar.'15
169.
Ms. Soupart’s complaint against
Telasco was filed 104 weeks after The Florida Bar
started its unending 5 case persecution against
Telasco.
170 . The Bar deliberately hid the settlement
check it received from Telasco and proceeded to led
Ms. Soupart and the other 7 clients to believe that
Telasco stole their settlement money.
111. Paragraph 6 through 10 of the affidavit
incorrectly states that The Bar obtained a copy of
Telasco’s Trust Account and upon review it
™ See Exhibit “L6.”

72a
discovered that Telasco used all her 8 clients
settlement fund for personal or business matters
unrelated to her clients, and the balance in the
trust account as of February 28, 2001 was $0.00.
172. Telasco knows that this is a fabrication
as she personally went to the bank, obtained a
certified check from her account and included it in
the resignation packet that she delivered to the
referee.
173. If The Bar obtained copies of Telasco’s
trust account, it must have done so after November
6th, 2001, when the funds were removed and given
over to it in the form of a cashiers’ check.
174. Defendant The Florida Bar’s grievance
letter alludes to the fact that it would have a copy
of Telasco’s disbarment and suspension files
because sanctions were imposed in those files.76
Since the Bar claims to have a copy of her trust
account, it should be able to produce
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 34 of 300
copies of her trust account, in discovery, to show
that trust account number 834-068022-7 had a zero
balance on February 28th, 2001.

™ See Exhibit “Al”

73a
175. The doctored Affidavit jumped from
number 11 to number 38. Paragraph 38 of the 12
paragraph affidavit states that it is Mr. Ruga’s
opinion that Telasco misappropriated her clients’
funds and that she is a clear and present danger to
the public. This affidavit clearly contradicts Mr.
Ruga’s report.
176. Telasco became aware of this affidavit
after she requested copies of the 4 files from The
Florida Supreme Court.
177. In the meantime, Mr. Ruga who stated
that he had never seen his report ignored in this
fashion and could not make sense out of what had
happened to Telasco gave a colleague of Telasco the
following inter-office documents in and around
2004;
a) the letter from The Bar to Mr. Wald
acknowledging that Telasco remitted the
settlement funds;77
b) a copy of the complaint form dated March
18, 2002 by Venicia Soupart, one of Telasco’s 8
former clients stating that Telasco kept her
settlement money;78 and
77 See Exhibit “L5” -- letter acknowledging Telasco
remitted the settlement funds to Defendant The Florida Bar.
78 See Exhibit “L6” -- Ms. Venicia Soupart complaint.

74a
d) A copy of Mr. Wald’s Renewed Petition to
Disburse Funds dated May 20, 2003 with the
caption The Florida Bar v. Anne Georges Telasco,
case number 2002-11-CA-0 which The Florida Bar
kept in Telasco’s Bar file, easily found and
re viewable by the public.79
This petition
incorrectly alleged that there was a criminal case
against Telasco with the State Attorney’s office.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 35 of 300
178. Clearly the documents described in the
preceding paragraph contradict the hastily
prepared and doctored Ruga’s Affidavit which was
supposedly used as the cornerstone of the Amended
Referee’s Report and the disbarment judgment for
theft against Telasco.
b. The Amended Referee’s Report Dated
April 29. 2002
179. The Bar changed the facts as they existed
and as founded by its own auditor, Mr. Ruga.
180. The Bar’s purpose is clear throughout the
amended report, that is, to negate Telasco’s
accomplishments and destroy her character and
career.

79 See Exhibit “Q” - Mr. Wald’s renewed Petition.

75a
181. In Section II (B)(4) of the Amended
Referee’s Report, The Bar falsely and maliciously
presented to the court “That Respondent [Telasco]
represented three (3) of these aforementioned
clients in three (3) separate trials; each resulted in
a defense verdict and/or outcome ” The Florida Bar
made this statement in spite of the fact that it
knows that Telasco won 2 of the cases while
Sheraton ITT won 1 of the cases at the
administrative hearing.*0
182. Section II (B) (17) of the Amended Report
states: “to date, Telasco failed to remit any of the
said settlement funds to her clients.”81 The report
was executed on April 29, 2002 that is almost six
months after Telasco submitted the settlement
funds to The Bar.82
183. Section II (A) of the Amended Report
states: ‘Telasco is, and at all times mentioned
during this investigation was a member of The
Florida Bar, and is therefore subject to the
jurisdiction and disciplinary rules of the Supreme
Court of Florida."** When The Bar filed

See Exhibit “B” referee’s report
81 See Exhibit “B” referee’s report page 7
82 See Exhibit “Ll through L5.”
83 See Exhibit “B” referee’s page 2.
80

76a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 36 of 300
its complaint for disbarment against Telasco on
January 8, 2002, Telasco had already resigned,
therefore The Bar no longer had jurisdiction over
Telasco. 84
184. Section IV of the Amended Report states
that: Respondent has violated Rule 4-8.4(b) (A
lawyer shall not commit a criminal act that reflects
adversely on the lawyer’s honesty, trustworthiness,
or fitness as a lawyer in other respects) and Rule 48.4(c) (A lawyer shall not engaged in conduct
involving
dishonesty,
fraud,
deceit,
or
misrepresentation); of the Rules of Professional
Conduct as well as Rule 5-1.1(a) (money or other
property entrusted to an attorney for a specific
purpose including advances for costs and expenses
is held in trust and must be applied only to that
purpose) and 5-1.2(f) (failure to comply with a
subpoena) of the Rules Regulating Trust
Accounts.85
185. The
on Telasco’s
exemplary at
the previous

paragraph 184 above does not reflect
character. Her behavior has been
all times, whether practicing law for
ten years before the investigation

See letter acknowledging receipt and possession of
funds by Defendant The Florida Bar
84

85 See Exhibit “B” referee’s Report at page 5

\

77a

started or the past 57 years of her life. Instead, the
paragraph is a reflection of The Bar which engaged
in dishonesty, fraud, deceit and misrepresentation
in order to secure a judgment of disbarment for
theft against Telasco.
186. In Section VII of the Amended Report,
The Bar misrepresented its costs.86 The Amended
Referee’s Report cited costs incurred by The Bar for
the taking of depositions on October 11, 2001; costs
incurred by it for translating services on October
12, 2001 and December 11, 2001, expert fee and
staff auditor’s fee.87
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 37 of 300
187. Telasco initiated and took all of the
depositions, and paid all of the costs including the
translator’s fees.
188. Telasco filed the original of all of the
depositions with The Referee and sent a copy to
The Bar with her resignation letters and the
The Bar did not
settlement cashier’s check,
initiate or take any depositions.
189. The Bar submitted its administrative
costs incurred in its disciplinary case against
See Exhibit “B” referee’s Report page at page 9-10.
87 See Exhibit “B,” Page 9 section 7.
86

78a
Telasco as $750.00 and no auditing costs in the
petition for disciplinary resignation it prepared for
Telasco’s signature.88
190. Section V of the Amended Report states
that Telasco was served and she failed to file any
responses or participate in the disbarment
proceeding and that The Bar had made every effort
to serve Telasco without success.
191. Telasco vehemently denies that The
Bar made any effort whatsoever to give her notice
or to contact her. If Telasco had been aware of the
disbarment proceeding or received notice of the
hearing she would have attended and defended
against The Bar disbarment for theft even though
she had already resigned because she knew the
stigma of disbarment would continuously haunt her
and it has.
192.
Section VI (B) at page 7 of the
Amended Report states that Telasco
(4.11)
intentionally and knowingly converted client
property; (4.61) knowingly and intentionally
deceives her clients; (5.11) (b) engaged in serious
criminal misconduct, intentional interference with
the administration of justice, false swearing,
misrepresentation,
fraud,
extortion,
misappropriation or theft; (5.11) (f) intentional
conduct involving dishonesty, fraud, deceit, or
88

See “Kl” pages 3.

79a
misrepresentation that seriously adversely reflects
on the lawyer’s fitness to practice; (7.1)
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 38 of 300
intentionally engages in conduct that is a violation
of a duty owed as a professional with the intent to
obtain a benefit for the lawyer or another, and
causes serious or potentially serious injury to a
client, the public, or the legal system.
193. The claims that are delineated in
paragraph 192 above are not reflective of Telasco’s
actions or behavior, but rather reflect The Bar’s
behavior in the manner in which it proceeded
against Telasco.
194. Section VI (C) of the Amended Report
states the aggravating factors demanding Telasco’s
disbarment are (9.21(b)) dishonest or selfish
motive; (9,21(c)) a pattern of misconduct; (9.21(d))
multiple offenses; and (921(i)) substantial
experience in the practice of law. The Referee
noted that Telasco’s non-appearance at the final
hearing was also considered as an additional
aggravating circumstances.89
195.
The report states that Telasco is
dishonest and harbor selfish motive.
Telasco
89 See Exhibit “B” referee’s Report at page 8.

80a
initially gave a credit of $31,552.30 to her clients so
that each of her former clients would receive
$10,000 each as a settlement.90
196. The moment that Sheraton ITT made
full payment of the settlement funds, Telasco sent a
letter to the 8 clients informing each of them to come
in to pick up their settlement check.91
197. Thus, the legal charge that she was
dishonest and selfish is false.
198. The report states that Telasco has a
pattern of misconduct. Yet, Section VI (D) of the
Referee Amended Report noted that Telasco’s
mitigating factors was that (9.31(a)) there is an
absence of prior disciplinary record.92 Thus, the
report confirmed that Telasco had never
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 39 of 300
been the subject of an ethic or a criminal complaint
and she had never been the subject of a malpractice
action for the almost 10 years she practiced law.
199.
The Referee noted that The Bar
recommended disbarment of Telasco and he
Ruga affidavit page 1.
91 Letter to come and pick up settlement check.
92 See Exhibit “B” referee’s Report page 7.
90

81a
accepted The Bar’s recommendation for disbarment
to the Florida Supreme Court because disbarment
is the usual sanction to be given to a lawyer who
misappropriated clients’ funds (despite the fact that
Telasco had given the funds to The Bar for
disbursement to her former clients) and Telasco’s
uncooperative attitude toward the disbarment
proceeding (Telasco failed to respond or defend in
the disbarment proceedings because she had been
given no notice).
c. The Bar and the Settlement Funds
200. On April 24, 2002, The Bar deposited
the cashier’s check (settlement funds) Telasco had
previously submitted to it on November 6, 2001,
using a different file, created in the circuit court
and misnamed the file so Telasco would never
discover it if she had searched the circuit court data
base.93
201. On April 19, 2002, The Bar sought and
obtained an order to reissue Washington Mutual
Bank’s official check to be made payable to the
Clerk of Court, as that check was now-stale
dated.04

93 See Exhibit. “L5” and “M2” see letter and docket sheet
of 5th case.
9“ See Exhibit “Q2.”

82a
202. On April 29, 2002, 10 days after the
Referee entered the order to reissue the staledated settlement check, The Referee filed his
report recommending Telasco’s disbarment for
stealing these same settlement funds and for her
failure to distribute any funds to her former
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 40 of 300
clients.95 This report was made 5 days after The
Bar mysteriously found the check and deposited it
under the misnomer case captioned The Florida
Bar v. Petition for Inventory Attorney.96
203. On July 11, 2002, the Supreme Court of
Florida entered a judgment for disbarment for theft
against Telasco on the uncontested Amended
Referee’s report.97
204. The Florida Supreme Court’s Judgment
of disbarment for theft against Telasco incorrectly
states that Telasco had no objection to the amended
report.
205. The Amended Report was uncontested
because Telasco was not notified of the proceedings

95 See Exhibit “B.”
99 See Exhibit “M2.”
9^ See Exhibit “C ”

83a

and was not provided with a copy of the Report
recommending disbarment for theft.98
206. The dockets of this fourth case included
in The Bar’s grievance letters is void of any
notation that the settlement check was submitted
and received by The Bar or that The Bar sought
and obtained an order from the Referee ordering
Washington Mutual Bank to reissue the cashier’s
check that Telasco submitted to it on November 6,
2001."
5. The Fifth Case Fabricated bv The
Florida Bar Against Telasco
CASE V. The Fifth Case Created bv The Bar
Case 2002-11-CA-01 - Petition for Inventory
Attorney. Opened 1/2/2002 & closed 1/9/2004.
This fifth case intentionally and
maliciously fabricated by The Bar was not filed nor
recorded in The Florida Supreme Court’s database
and it was not included in The Bar’s grievance
letters dated September 22, 2008100 and March 23,
2018.101
207.

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 41 of 300
98 See Exhibit “C” - Judgment of disbarment
99 See Exhibit “N4.”
100 See Exhibit “K.”
101 See Exhibit “Al” and “A2.”

84a

208. The docket of this fifth case is labeled
The Florida Bar vs. Petition for Inventory
Attorney, case no. 2002-1l-CA-01 in the Circuit
Court’s database.102 In this case, Telasco is the
Defendant but it does not bear her name. The case
has an important bearing on the matters of her
disbarment for theft since a review of the docket
would absolve her of the accusations leveled by The
Bar against her.
209.
Telasco discovered this case only
because Mr. Ruga, The Bar’s accountant, released a
copy of Mr. Wald’s Renewed Petition to Disburse
Funds dated May 20, 2003 which had the proper
caption The Florida Bar v. Anne Georges Telasco.
case number 2002-11-CA-0 to Telasco.103
210.
The docket of this fifth case The
Florida Bar vs. Petition for Inventory
Attorney104 reflects the following:
1) it was opened on January 2, 2002, two
months after Telasco resigned;
2) that on 4/23/03 Telasco (personally) filed
a petition to disburse funds;
3) that on 5/21/03 Telasco (personally)
See Exhibit “M2.”
103 See Exhibit “Q1 ”
104 See Exhibit “M2.”

85a
requested and attended a hearing;
4) on 9/17/03 Telasco set a hearing before
the wrong Judge\ Telasco does not know what type
of hearings she supposedly set or attended because
she had no knowledge, was not present and did not
participate in any of the proceedings in this case;
5) on 10/06/03 Telasco received an order
granting petition to disburse funds;
6) Telasco had no need to seek an order
granting her the right to disburse the
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 42 of 300
funds since Telasco had submitted the funds to The
Bar on November 6, for disbursement to her former
clients. Thus, the check had been in The Bar’s
possession for almost 3 years.
7) On 11/19/03, three years after Telasco
submitted the check to The Bar and after The Bar
obtained a disbarment judgment against Telasco for
theft of these same funds, the court issued the
settlement check to Mr. Wald’s firm for distribution
to Telasco’s 8 former clients.
211. The Bar created this fifth case in the
circuit court in order to turn over the settlement
funds to Mr. Wald and to keep the case out of the
purview of The Florida Supreme Court since it had

86a
falsely secured a judgment of disbarment for theft
against Telasco by charging that Telasco stole the
same settlement funds.
212. Futhermore, the docket of this case has
the caption The Florida Bar vs. Petition for
Inventory Attorney with proper Case No. 2002-11CA-01;105 not the caption that is reflected in Mr.
Wald’s Renewed Petition to Disburse Funds filed
on 5/21/03,106 The Florida Bar v. Anne Georges
Telasco, case number 2002-11-CA-01.107
213. Telasco attempted to secure a copy of this
case from The 11th Circuit Court in 2008 but she
was advised by the court that there were no
documents and no such case in the court database
or filing system. Thus, it is fair to say that The
Florida Bar is so powerful that is was able to
fabricate a docket, which is a roadmap, of a non­
existent case for the sole purpose of destroying
Telasco career, reputation and all of her future
prospects.
214. When any individual is looking at the
docket of this devastating case, they will believe it
to be real since it is in the court system and The
Bar is the Plaintiff.

los See Exhibit “M2.”
106 See Exhibit “Ql.”
107 See Exhibit “M2”

87a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 43 of 300
215. The only purpose for creating the fifth case
and keeping a copy of Mr. Wald’s Motion, which
alleges that there is a criminal case against Telasco
at the State Attorney’s office when no such case
exist, in Telasco’s Florida Bar file is to negligently,
knowingly, intentionally and maliciously harm
Telasco.108
216. The only way anyone can pull this case, is
by reviewing Telasco’s Florida Bar file which
harbors Mr. Wald’s motion (which has the proper
caption and case number) because
The Bar
purposely misnamed the case in order to hide it
from Telasco.
217. The docket does not mention Mr. Ruga’s
report which should have been an intrinsic part of
this inventory.
218. The docket of this case was pulled 32
times as of September 2008 when Telasco
discovered it.

108 While malice is presumed when the publication is
actionable per se, a showing that the defendant actually
intended to injure the plaintiff is the equivalent of malice in
fact. Jones v. Greeley. 25 Fla. 629, 6 So. 448 (1889); 20
Fla.Jur. Libel and Slander, § 53.

88a
F. Telasco Filed a Petition for Writ of
Certiorari With The United States Supreme
Court
219. After Telasco discovered the 5 cases The
Bar malicious fabricated against her, on February
20, 2009
Telasco challenged the order of
disbarment for theft by filing a Petition for Writ of
Certiorari with the United States Supreme Court
with a copy to the Supreme Court and The Florida
Bar.109 The United States Supreme Court denied
Telasco’s petition on the basis that Telasco was out
of time.110
220. Telasco was disillusioned that the
courts did absolutely nothing to help her even
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 44 of 300
though she as an attorney who gave all of herself to
the practice of law and was in good standing before
The Bar implemented its reign of terror on her life
and the life of her family.
221. After Telasco received The Supreme
Court’s decision, she fell into a deep depression as
it seemed she would never get an opportunity to
clear her name.
109

See Exhibit “Q4.”

no See Exhibit “Q5.”

89a

222. For the next 10 years Telasco went in and
out of depression.
223. She had been ostracized from her
profession and all that she know, was
unemployable and was earning about $20,000.00
per year for a household of 4.111
224. Telasco has been and continues to be
shunned and ostracized by society.
225. Her depression deepened to the point
where she did not care whether she lived or died;
her mother forcibly reminded her that she had
minor children and a mentally ill brother
depending on her. This forced her to keep going
and compartmentalize her depression.
226. Telasco could not follow through with her
application with the New York State Bar in 2008
because she was mentally, emotionally and
spiritually exhausted.
227. Telasco’s faith in the creator, her mother,
her minor and dependent children and her brother
became her anchors.
228. In 2015 Telasco’s daughter received a full

»» See Exhibits “Wl” through “W5.”

90a
merit and need scholarship to attend The
University of Southern California studying the
Business of Cinematic Arts and Screenwriting.
229. Telasco’s fear for the future of her
daughter has now subsided.
F) Re-application to The New York Bar
230. In 2018, Telasco studied for The New York
State Bar exam and re-applied for
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 45 of 300
admission to The New York State Bar. She needed
to provide The New York Bar with a new updated
application, character references, affidavit of good
standing, and a grievance letter since it has been
10 years (2008) since she applied for admission.112
231. On or about March 27, 2018, Telasco
received the grievance letter from The Bar dated
March 23rd 2018. This grievance letter was an
exact match to the 2008 grievance letter.
232. The March 23, 2018 grievance letter was
issued 10 years after The Bar became fully aware
that its judgment of disbarment for theft against

112 See Exhibit “Rl” to “R3

91a
Telasco was fraudulently acquired and is the
product of fabricated charges.113
233. In 2018, Telasco who is now 57 years old
re-apply admission to the New York Bar. Telasco
was not seeking admission to The New York Bar to
practice law but to hopefully clear her name. She
had hoped that by seeking admission to The New
York Bar, New York would review all of the
evidence that she has produced to this court and
she was certain that The New York Bar would view
this theft judgment for what it is, a fabrication by
The Florida Bar.
234. Admission to The New York Bar was
Telasco’s last hope to remove the status of being a
low-life thief which is presently synonymous with
her name and character since the United States
Supreme Court and the Supreme Court of Florida
had opted out of helping her.
235. To Telasco’s chagrin she was told that
most states including New York will not grant her
a license because New York will honor and accept
The Florida Bar’s theft judgment against her.
236. The Bar has used the court to destroy
Telasco’s life. The only avenue with which to
remove this debilitating stain on her life and family
is through this defamation action.
“3 See Exhibit “Q5.”

92a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 46 of 300
V. CAUSES OF ACTION
FIRST CAUSE OF ACTION
Common Law Defamation “Per Se”
237. Telasco repeats and realleges each and
every allegation of the foregoing paragraphs as if
fully set forth herein.
a. Publication of The Grievance Letter
Dated March 23. 2018 to The New York State
Bar is libel “Per Se”
238. On or about March 23, 2018, The Bar
negligently published the 2018 Grievance Letter
which incorporated the Amended Referee’s Report
and Judgment of disbarment for theft against
Telasco to The New York Bar.
239. These documents, when considered alone
without innuendo, legally declare that a) Telasco
misappropriated $80,000.00 of her clients’
settlement funds; b) her conduct, characteristics
and condition are incompatible with the proper
exercise of her legal profession; and c) she is a
clear and present danger to the public as a licensed
practicing attorney.

93a
240. These documents are prima facie evidence
that Telasco has committed an infamous crime
because theft is a crime of moral turpitude of a
nature that creates a strong presumption that
Telasco, an attorney who is held to a higher
standard than the public, is unworthy of belief in a
court of law and is not trustworthy as an individual
and business associate. 114
241. The Bar acted negligently on a matter
concerning Telasco, a private person.
a) The Grievance letter is defamatory
242. The Grievance Letter with its
accompanying documents to The New York Bar is
libelous
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 47 of 300
on its face.
243. It has and continues to subject and expose
114 In Paul v. Davis. 424 U.S. 693, 96 S.Ct. 1155, 47
L.Ed.2d 405 (1976) the court held that when defamation is
committed by a public body, it is not a constitutional tort. The
interest in reputation that the common law tort of defamation
protects has been held not to be a species of liberty or
property within the meaning of the due process clauses of the
Fifth and Fourteenth Amendments.

94a
Telasco to hatred, distrust, ridicule, contempt,
disgrace and obloquy because The Bar fraudulently
secure a judgment of disbarment for theft against
Telasco when The Bar had actual possession and
control of the same funds it fraudulently claimed
Telasco stole.
244. The Grievance Letter with its
accompanying documents to The New York Bar is
also libelous on its face because it unequivocally
states that Telasco’s conduct, characteristics and
condition are incompatible with the proper exercise
of her legal profession, and that Telasco is a clear
and present danger to the public as a licensed and
practicing attorney.115
245. The Grievance Letter with its
accompanying documents to The New York Bar
has and continues to injure Telasco in her learned
profession as an attorney and filmmaker.116

A defamatory statement is a statement that tends
to harm the reputation of another by lowering Plaintiff in the
estimation of the community and exposes the Plaintiff to
hatred, ridicule, or contempt,
injures her business,
reputation, or occupation. Jews for Jesus. Inc, v. Edith Rapp.
997 So.2d 1098, 1109 (Fla. 2008).
115

116 " [A]

publication is libelous per se or actionable per
se, if, when considered alone without innuendo: (1) it charges
that a person has committed an infamous crime; (2) it charges
a person with having an infectious disease; (3) it tends to
subject one to hatred, distrust, ridicule, contempt, or disgrace;
or (4) it tends to injure one in his trade or profession." Richard
v. Gray. 62 So.2d 597, 598 (Fla.1953); Shafran v. Parrish. 787

95a

246. The Grievance Letter and its
accompanying judgment for theft against Telasco is
defamatory.117
b) Third Party Publication by The
Florida Bar
247. The New York State Bar requested a
t grievance letter for Telasco from The Florida Bar.
The purpose of this letter is to inform the
requesting third party, The New York Bar, of any
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 48 of 300
character flaws, grievance proceedings filed against
Telasco, the nature of said proceedings and their
outcome. The Bar is well aware of this procedure

So.2d 177, 179 (Fla. 2d DCA 2001; and Campbell v.
Jacksonville Kennel Club, Inc., 66 So.2d 495m 497 (Fla. 1953)
citing Restatement, Torts, Section 570.
117 A statement is also per se defamatory if it imputes
to another (a) a criminal offense amounting to a felony, or
conduct characteristics, or a condition incompatible with the
proper exercise of her lawful business, trade, profession or
office or if it tended to injure Plaintiff in her trade or
profession. Campbell v. Jacksonville Kennel Club. Inc.. 66
So.2d 495m 497 (Fla. 1953) citing Restatement, Torts, Section
570.

96a
as it is customary for all state bars, including The
Florida Bar, to make such a request from bar
applicants.
with its
248. The Grievance Letter
accompanying documents is The Florida Bar’s
response to The New York Bar’s inquiry about
Telasco’s status.
249. It is axiomatic that a disbarred lawyer
and the reason for disbarment will follow the
lawyer wherever she goes. Thus, it was foreseeable
by The Florida Bar that Telasco, the defamed
attorney would be obligated by the rules governing
all state bars to submit the defamatory Grievance
Letter,
the Referee’s Report which contain the
reason for her disbarment and the Disbarment
Order to any state bar in which she seeks
admission.118 Thus, publication in this manner is

118 In Dupuv v. Samuels. 397 F.3d 493, 510 (7th Cir.
2005), the court explained that third party publication is
satisfied when the plaintiffs are obligated to authorized [a
state agency] the Department of Children and Family
Services (DCFS) to disclose its finding that plaintiffs were
child abusers to the plaintiffs' current and prospective
employers whenever plaintiffs look for work in the child care
field.
The Dupuy court cited Valmonte v. Bane. 18 F.3d 992,
1002-04 (2d Cir. 1994) holding that “being listed on the state
child abuse register stigmatized the plaintiff who said she
would be applying for a child care position because her status
would be disclosed to her potential employers when they

97a
not a departure from conventional principles of tort
law because it is grounded in the principles of
foreseeability and proximate cause.119
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 49 of 300

consulted the register, as required by state law, Valmonte. 18
F.3d at 1000, as disclosure by DCFS is a condition of
employment, ... all current and prospective employees of a
child care facility who have any possible contact with children
in the course of their duties, must authorize DCFS to conduct
a background check to determine if the person has an
indicated report against him.
Because a prospective
employee's status is disseminated to his potential employer, by
operation of state law, during the hiring process, we believe
that the plaintiffs have met the publication requirement.”
In Zavadil v. The Florida Bar. 197 So.3d 596 (Fla. 4th
DCA 2016) the court held that “maintaining an accurate
public listing of attorneys, including whether or not they are in
good standing and able to practice, is an integral part of the
lFlorida] Bar's duties, as is responding to inquiries regarding
an attorney's status. See, e.g., R. Regulating Fla. Bar 3-5.4.”
119 The In Zavadil the supreme court "revoked” his
[Zavadil] license %/or making material omissions in his
application for admission to the Bar. Fla. Bd. of Bar Exam'rs
ex ret. Zavadil. 123 So.3d 550 (Fla.2013). Telasco has no
realistic alternative but to submit the defamatory Grievance
Letter and accompanying documents to the New York Bar
because fabrication of facts or omission of facts are not
reasonable options for Telasco as shown in Zavaldil.

98a
250. The Bar was duty-bound to investigate
Telasco serious allegation of fabrication and
fraudulent misrepresentation to the court because
of the nature of the charges and because of the
severe, life changing penalty a judgement for theft
against an attorney from The Florida Supreme
Court would impose and continues to impose on the
attorney’s career and future.120
251. The New York Bar indeed read and
understood the defamatory per se statements made
in the Grievance letter, the Amended Referee’s
120 In Rudloe v. Karl. 899 So.2d 1161 (Fla. 1st DCA
2005) Rudloe filed a second amended complaint again FSU
alleging that FSU negligently breached its duties "to the
Plaintiffs to research and verify facts concerning the Plaintiffs
prior to authoring and publishing publications concerning
same .... [and] to carefully review materials that it solicited
for publication so as to not defame persons ... in university
publications." The trial court dismissed the complaint with
prejudice as to FSU on sovereign immunity ground, The
appellate court held that sovereign immunity is no bar to
appellants' negligent defamation claim.
The Rudloe court explained, "First, for there to be
governmental tort liability, there must be either an
underlying common law or statutory duty of care with respect
to the alleged negligent conduct." Trianon Park Condo. Ass'n.
Inc, v. City of Hialeah. 468 So.2d 912, 917 (Fla. 1985). Here,
because of the common law duty publishers owe non-public
figures, the second amended complaint adequately stated a
claim for relief against FSU in alleging that FSU negligently
published defamatory material about Mr. Rudloe and Gulf
Specimen.
/

99a
Report and The Judgment of disbarment for theft
against Telasco.
c)

Falsity

252. The Florida Bar falsified numerous
documents including its auditor’s affidavit in order
to secure a theft judgment for $80,000.00 against
Telasco. When The Bar fraudulently represented
to the court that Telasco misappropriated her
clients’ settlement funds and secured a judgment
for theft against Telasco, The Bar was in full
possession and had complete control over these
same
funds
which
it
claimed
Telasco
misappropriated.
253. The Bar also claimed that Telasco’s
conduct, characteristics and condition are
incompatible with the proper exercise of her legal
profession, and that she is a clear and present
danger to the public.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 50 of 300
254. During the almost 10 years of practicing
law, Telasco was in good standing with both the
federal and state courts and had no issues with her
clients. She had never been the subject of any

100a
ethics or criminal investigation or case and was
never sued for malpractice. 121
d) The Florida Bar Acted Negligently
and/or with Reckless Disregard for the Truth
on a Matter Concerning Telasco, a Private
Person.
255. On or about February 20, 2009, Telasco
alerted The Bar that she was aware that it had
deceived the court and defamed her by filing a writ
of certiorari with the United States Supreme Court
with a copy to The Florida Bar and the Florida
Supreme Court. Telasco included all pertinent
document with her writ which unequivocally reflect
that Telasco did not misappropriated her clients’
funds and that she had been practicing law for
almost 10 years without any incident. 122

121 "In all cases of alleged defamation, whether libel or
slander, the truth of the offensive statements or
communication is a complete defense against civil liability,
regardless of bad faith or malicious purpose." It is the
defendant's burden to "justify," or show the truth of the
statements. Significantly, however, the defendant need not
justify the literal truth of every word of the allegedly
defamatory matter. It is sufficient if the substance of the
charge is proven true, irrespective of slight inaccuracy in the
details, "so long as the imputation is substantially true so as
to justify the 'gist or sting' of the remark." See Gertz v. Robert
Welch. Inc. (1974) 418 U.S. 323, 339-340); and Milkovich v,
Lorain Journal Co. 497 U.S. 1, 18-20 (1990).
122

See Exhibit “Q3" and “Q5.”

101a
256. The writ and its attachments were served
and duly received by The United States Supreme
Court, The Florida Supreme Court and The Florida
Bar.123
257. The Bar is also aware of Telasco
website which she created on November 2001. This
website contains most of the same pertinent
documents that are attached to this complaint. As
a matter of fact, The Bar has been sending emails
to Telasco via this website.124
258. This grievance letter which is the
subject matter of this action was issued on March
23, 2018, that is 10 years after Telasco served her
writ on The Bar.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 51 of 300
259. Thus, The Bar knew that its judgment
of disbarment for theft against Telasco was
fraudulently acquired and is the product of
fabricated charges.
256. For almost 20 years, The Bar has made
no effort to remove the badge of shame and
disgrace it attached to Telasco.

123
124

See Exhibit “Q4.”
See Exhibit “Q3.”

102a
257. The Bar’s defamation of Telasco is
perpetual and Telasco suffers anew each time
someone inquire into the reason for her
disbarment, googles her name, reviews her Florida
Bar file or reviews the 5 fabricated court files that
are available to the public from the Supreme Court
of Florida and the 11th circuit court data base. 125
258.
The Bar is negligent and shows
reckless disregard for the truth.
e) The Florida Bar was not acting within
the scope of its duties as mandated by Fla.
Stat. Ann. §768.28(9)(a)
259. The Bar acted in bad faith and with
malicious purpose when it a) fabricated 5 cases
against Telasco, b) falsified numerous documents
including its auditor’s affidavit in order to secure a
theft judgment against Telasco when all the while
it was in possession and had complete control over
these same funds.126
125 In Smith v. Clinton, 687 F. Supp. 1310, 1312- 13
(E.D. Ark. 1988) Plaintiffs brought suit to vindicate their
voting rights and to ensure that the voting power of African
Americans in Alabama is no longer diluted under Alabama’s
congressional district map in violation of the Voting Rights
Act. The court held that an injury to voting rights is
continuing, suffered anew each time an election is held.
126 Section 768.28(9)(a) states that:
“No officer,
employee, or agent of the state or of any of its subdivisions
shall be held personally liable in tort or named as a party

103a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 52 of 300
and c) represented to the court that Telasco’s, an
attorney in good standing, conduct, characteristics
and condition are incompatible with the proper
exercise of her legal profession, and that she is a
clear and present danger to the public as a licensed
practicing attorney.

defendant in any action for any injury or damage suffered as
a result of any act, event, or omission of action in the scope of
her or his employment or function, unless suck officer,
employee, or agent acted in bad faith or with malicious
purpose or in a manner exhibiting wanton and willful
disregard of human rights, safety, or property."
In Claridv v. Golub. (11th Cir., 2015), following the
Plaintiffs arrest, Defendant completed an offense report
indicating that Plaintiff had committed disorderly conduct by
violently threatening Defendant as he tried to deescalate the
disturbance, and that Plaintiff had then committed battery on
a law enforcement officer by pushing Defendant with both of
his hands. Plaintiff contends that Defendant fabricated
critical parts of the report, most importantly the allegation
that Plaintiff had threatened and pushed Defendant. The
court held that Defendant’s contention is supported by
testimony in the record and the evidence suggests that the
State Attorney relied on Defendant's report in deciding to
prosecute Plaintiff, and in defining the charges against him.
The Golub court cited Bank of Am. Corp. v. Valladares. 141
So. 3d 714, 718 (Fla. 3d DCA 2014) holding that a person who
reports a crime acts maliciously when he "knows the report is
false or recklessly disregards whether the report is false."

104a
260. Pursuant to the mandate of Fla. Stat.
Ann. §768.28(9)(a), The Bar is liable in tort to
Telasco for her injuries and damages she suffered
as a direct and proximate result of The Bar’s action
of obtaining a theft judgment against Telasco
through the use of fraud and corrupt means.121
e) The Florida Bar communication with
the New York Bar is not Privileged Because it
was not Made Within the Scope of The Bar’s
Official Duties and Powers
261. The Bar’s action of securing a theft
judgment ex parte and by default against Telasco
trough fraud and corrupt means was not made
within the scope of the Bar’s duties, responsibility
or authority as the Bar’s duties are to ensure the
highest standards of legal professionalism in
Florida and protect the public by prosecuting
unethical attorneys.128

127 In Claridv v. Golub. (11th Cir., 2015) the court also
cited Lloyd v. Hines. 474 So. 2d 376, 379 (Fla. 1st DCA 1985)
which held that an officer's use of fraud or corrupt means to
obtain a warrant gives rise to individual liability under §
768.28(9)(a)). Accordingly, Defendant is not entitled to
judgment on the state law claims based on immunity provided
by § 768.28(9)(a).
128 In Tucker v. Resha. 634 So.2d 756 (Fla. 1st DCA
1994) the court held that the McNavr court explained what is
meant by an official [agency] acting within the scope of his
[its] power when it held that: "[T]he occasion must be such

i

105a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 53 of 300
262. The Bar’s publication of the libelous per
se grievance letter with it accompanying documents
to The New York Bar was not made in connection
with its duties and responsibilities.

as would have justified the act, if [the official! had been
using his power for any of the purposes on whose account it
was vested in him." McNavr, 184 So.2d at 431 n. 12 (quoting
Barr v. Matteo ); see also Huszar v. Gross. 468 So.2d 512, 515
(Fla. 1st DCA 1985).
In Cassell v. India. 964 So.2d 190 (Fla. 4th DCA 2007)
citing Fridovich v. Fridovich. 598 So.2d 65, 68 (Fla.1992)
(quoting Restatement (Second) of Torts § 584, at 243)
(emphasis omitted). The court held that in Florida, "[pjublic
officials who make statements within the scope of their duties
are absolutely immune from suit for defamation.... The
controlling factor in deciding whether the absolute privilege
applies is "whether the communication was within the scope of
the officer's duties." City of Miami v. Wardlow. 403 So.2d 414,
416 (Fla.1981). ... The term "duties" is not confined to those
things required of the officer, but rather extends to all
matters which he is authorized to perform. See Stephens v.
Geoehesan. 702 So.2d 517, 523; Restatement (Second) of Torts
§ 591, Comment f, at 256; City of Miami v. Wardlow. 403
So.2d414, 416 (Fla.1981).

106a

263. The Bar’s actions were not within the
scope of its authority.129
264.
The
Bar exceeded and abused its
conditional privilege by its fraudulent action.130

129 In Albritton v. Gandy. 531 So.2d 381 (Fla. 1st DCA
1988), a county commissioner tried to get a low-level county
employee fired due to a personal vendetta. The court held that
the county commissioner's statements resulting in the county
employee's discharge were not privileged because the county
commissioner was not in charge of hiring and firing and, thus,
"there was no official purpose" for his statements. Id. at 387.
The Albritton court held “To begin with, although statements
made by government officials are protected by absolute
immunity in certain situations, in order for immunity to
attach, the statements must be made within the scope of the
official's duties and powers. The court found that the county
commissioner's actions were found to have fallen outside the
scope of his duties, such that his statements were not
absolutely privileged.
It is well settled that Public officials and state
agencies are granted an absolute privilege as long as
statements are made in connection with "their duties
and responsibilities of their office." McNavr v. Kelly. 184
So.2d 428, 433 (Fla.1966); City of Miami v. Wardlow. 403
So.2d 414 (Fla.1981). The privilege extends only to words or
acts within the scope of the authority of the public servant.
Ward v. Allen. 11 So.2d 193 (Fla.1942); Saxon v. Knowles. 185
So.2d 194 (Fla. 4th DCA 1966); Knight v. Starr. 275 So.2d 37
(Fla. 4th DCA 1973).
130 The Axelrod court held that when the evidence is
conflicting as to the existence or nonexistence of privilege
there is a mixed question of law and fact, and the fact issue is
to be determined by the jury. Hartley & Parker v.

107a

f) The Florida Bar’s Libelous Per Se
Publication Against Telasco was not a
Conditionally Privileged Communication
265. The Bar’s action in paragraph 259
above were made while Telasco was in good
standing with The Bar and had an exemplary
record with the courts and her clients.131
266. The Bar’s action was not done in good
faith, and the Bar was not upholding any interest
that needed to be upheld.132
Copeland.51 So.2d 789 (Fla.1951). If the privilege is
conditional or qualified, and there is sufficient evidence to
indicate that the privilege may have been exceeded or abused,
the issue of fact must be submitted to the jury.
Whether a qualified privilege exists is a mixed
question of law and fact subject to determination by the trier
of fact." Shafran u. Parrish. 787 So.2d 177, 180 (Fla. 2d DCA
2001).
131 In Axelrod v. Califano. 357 So.2d 1048 (Fla. l8t
DCA 1978) the alleged publication branding Axelrod a thief
and forger was actionable per se, and, as such, raised a
presumption of malice as a matter of law.” Lavne v. Tribune
Co., supra; Commander v. Pedersen, 116 Fla. 148, 156 So. 337
(Fla. 1934); and Tip Top Grocery Co. v. Wellner, 135 Fla. 518,
186 So. 219 (1938).
The elements essential to the finding of a
conditionally privileged publication are: 1) good faith; 2) an
interest to be upheld; 3) a statement limited in its scope to
132

108a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 54 of 300
267. For The Bar’s publication to the New
York Bar to be conditionally privileged, the report
and judgment for theft it secured ex parte and by
default against Telasco must have been correct.133

this purpose; 4) a proper occasion; and 5) publication in a
proper manner. Abraham v. Baldwin. 52 Fla. 151, 42 So. 591
(1906); and Leonard v. Wilson. 150 Fla. 503, 8 So.2d 12
(1942).
133

The publication of reports of judicial proceedings is
conditionally privileged. However, for this privilege to attach
to such reports, the report must be fair, impartial and
accurate. This means that the report of judicial proceedings
must be correct. Walsh v. Miami Herald Publishine Co.. 80
So.2d 669 (Fla. 1955) citing 33 Am.Jur., Libel and Slander,
§154.
In Florida, a published communication is
conditionally privileged where the communication is made by
a person having a duty or interest in the subject matter, to
another having a corresponding duty or interest. The
condition of the privilege is that the statement must be made
in good faith, that is, with a good motive, and for the purpose
of promoting or protecting the interest being discussed and
not for the malicious purpose of damaging the reputation of
another. Drennen v Washinston Electric Corn.. 328 So.2d 52,
55 (Fla.1st DCA 1976).
In the Florida Supreme Court's decision rendered in the
case of Loeb v. Geronemus. 66 So.2d 241 (Fla.1953), appears
the following: "(T)he general rule is that statements and
communications made in connection with the various

109a

268. The ex parte Referee’s report and
judgment for theft which the Bar secured against
Telasco are completely false. This report and
judgment are not fair, impartial or accurate.
269. The Bar acted negligently, with wanton
disregard for the truth and/or with actual malice
when it published the Grievance letter to the New
York Bar because it had actual knowledge that the
grievance letter accompanied with the Referee’s
report and judgment of disbarment for theft
against Telasco are false.134
activities of such an organization (a Jewish Community
Center) or group enjoy a qualified privilege. Under the rule it
is held that members of such bodies 'may report on the
qualifications of applicants, prefer charges against fellow
members, offer testimony in support of the charges, and make
proper publication of any disciplinary action that may be
taken, without liability for any resultant defamation, so long
as they act without malice.' 33 Am.Jur., Libel and Slander,
Sec. 132 (emphasis supplied)." The type of malice which the
court stated is necessary to vitiate the qualified privilege is
actual malice.
For defamation per se, actual malice need not be
Campbell v.
shown because damages are presumed.
Jacksonville Kennel Club. Inc.. 66 So.2d 495m 497 (Fla. 1953);
Wolfson v. Kirk. 273 So.2d 774 (Fla. Dist. Ct. App. 4th Dist.
1973).
134 Actual malice is having actual knowledge that
the defamatory statement is false or reckless disregard for
whether it is false or not. Such reckless disregard is

110a

270. The Bar forfeited its conditional and
qualified privilege to publish the Grievance Letter
to the New York Bar155 because it published the
letter with actual malice since it knew

manifested by making a statement with a high degree of
awareness of probable falsity. Holier v. WLCY-TV. Inc., 366
So.2d 445, 455 (Fla.2d DCA 1979); and New York Times v.
Sullivan. 376 U.S. 254, 279-280 (1964).
135 In Fridovich v. Fridovich. 598 So.2d 65 (Fla.1992),
after Edward Fridovich shot and killed his father, the police
concluded that the shooting was accidental and filed no
charges. Id. at 66. Edward's brother, Anthony, then initiated
a conspiracy among family members to have Edward charged
for the intentional killing of their father. Id. Anthony
purchased a stress analyzer to determine which conspirator
would be the most convincing deceiver, after which Anthony's
sister and her ex-husband were selected to make false
statements to encourage the authorities to reopen the
investigation. Id. Consequently, the investigation was
reopened, Edward was indicted for first-degree murder, and
he was eventually convicted of the lesser charge of
manslaughter. Id. After the trial, the sister and her exhusband recanted their statements and admitted the falsity
of their trial testimony.
Edward filed an action against Anthony and the other
conspirators for defamation and other claims.
The Fridovich court held that There is no benefit to
society or the administration of justice in protecting those
who make intentionally false and malicious defamatory
statements to the police. The countervailing harm caused by
the malicious destruction of another’s reputation by false
accusation can have irreparable consequences. We believe the

111a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 55 of 300
that the grievance letter which incorporated the
Amended Report of the Referee and the Judgment
of disbarment for theft were based on libelous
statements it fabricated and presented to the
court.136
the

271. The Bar had knowledge of the falsity of
defamatory statements, or made the

law should provide a remedy in situations such as this. We
thus hold, as a majority of the other states have held in this
context, that defamatory statements voluntarily made by
private individuals to the police or the state’s attorney prior
to the institution of criminal charges are presumptively
qualifiedly privileged.”
i36 Whether a qualified privilege exists is a mixed
question of law and fact subject to determination by the trier
of fact." Shafran v. Parrish. 787 So.2d 177, 180 (Fla. 2d DCA
2001).
In Axelrod u. Califano. 357 So.2d 1048 (Fla. 1st DCA
1978) the court held that when the evidence is conflicting as
to the existence or nonexistence of privilege there is a mixed
question of law and fact, and the fact issue is to be
determined by the jury. Hartley & Parker v. Copeland. 51
So.2d 789 (Fla.1951). If the privilege is conditional or
qualified, and there is sufficient evidence to indicate that the
privilege may have been exceeded or abused, the issue of fact
must be submitted to the jury.

112a
defamatory statements with reckless disregard to
the truth.
272. The Bar knows that disbarment is an
appropriate
penalty when a lawyer misappropriate [d] her
clients’ funds or commit theft.137
273. The Bar’s action of fabricating the
charges of theft against Telasco was motivated
more by a desire to harm Telasco and not to protect
its personal or social interest. Its action is also
equivalent to express malice.138
137

See Exhibit “B” referee’s Report page 8.

Express malice, or malice in fact, traditionally has
been defined as ill will, hostility and an evil intention to
defame and injure. Montgomery v. Knox. 23 Fla. 595, 3 So.
211, 217 (1897).
138

“Where a person speaks upon a privileged occasion,
but the speaker is motivated more by a desire to harm the
person defamed than by a purpose to protect the personal or
social interest giving rise to the privilege, then it can be said
that there was express malice and the privilege is destroyed.
... there must be a showing that the speaker used his
privileged position "to gratify his malevolence." Myers v.
Hodges, 53 Fla. 197, 213, 44 So. 357, 362 (1907); Sussman v.
Damian. 355 So. 2d 809 (Fla. 3d DCA 1977).
"In Florida, express malice sufficient to overcome the
presumption of good faith exists 'where the primary motive
for the statement is shown to be an intention to injure the
plaintiff.’ Thomas u. Tampa Bay Downs. Inc.. 761 So.2d 401,
404 (Fla. 2d DCA 2000) (quoting Nodar, 462 So.2d at 806).

113a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 56 of 300
274. This judgment for theft defamed,
injured and continues to defame and injure Telasco.
275. It has subjected Telasco to hatred,
distrust, ridicule, contempt, and disgrace. Thus,
The Bar’s defamation of Telasco is not privileged
and is actionable per se.
SECOND CAUSE OF ACTION
Common Law General Defamation
276. Plaintiff repeats and realleges each and
every allegation of the foregoing paragraphs as if
fully set forth herein.
277. Telasco sues The Bar for general
defamation.139
a) Defamatory Statement

To establish general defamation Telasco need only
show: 1) publication; 2) falsity; 3) The Florida Bar acted with
knowledge or reckless disregard as to the falsity on a matter
concerning a public official, or at least negligently on a
matter concerning a private person; 4) actual damages;
and 5) statement must be defamatory. Jews for Jesus. Inc, u.
Edith Rapp. 997 So.2d 1098, 1106 (Fla. 2008).
139

114a
278. On or about March 23, 2018, The Bar
knowingly,
willfully,
and/or
intentionally,
negligently published the Grievance Letter dated
March 23, 2018, which incorporated the Amended
Referee’s Report dated April 29, 2002 and the July
11, 2002 Judgment of disbarment for theft against
Telasco to The New York Bar.
279.
These documents, when considered
alone without innuendo, legally declare that
Telasco misappropriated $80,000.00 of her clients
settlement funds and The Supreme Court of
Florida entered a judgment of disbarment for

theft.:140
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 57 of 300
b) Publication
280. The New York State Bar requested a
grievance letter for Telasco from The Florida Bar.
The purpose of this letter is to inform the
requesting third party, The New York Bar, of any
character flaws, grievance proceedings filed against
A defamatory statement is a statement that tends
to harm the reputation of another by lowering her in the
estimation of the community and exposes the plaintiff to
hatred, ridicule, or contempt,
injures her business,
reputation, or occupation. Jews for Jesus. Inc, v. Edith Rapp.
997 So.2d 1098, 1109 (Fla. 2008).
140

l

115a

Telasco, the nature of said proceedings and their
outcome.
281. The Florida Bar is well aware of this
procedure as it is customary for all state bars,
including The Florida Bar, to make such a request
from bar applicants.
with its
282. The Grievance Letter
accompanying documents is The Florida Bar’s
response to The New York Bar’s inquiry about
Telasco’s status.141
141 In Duduv v. Samuels. 397 F.3d 493, 510 (7th Cir.
2005), the court explained that third party publication is
satisfied when the plaintiffs are obligated to authorized [a
state agency] the Department of Children and Family
Services (DCFS) to disclose its finding that plaintiffs were
child abusers to the plaintiffs' current and prospective
employers whenever plaintiffs look for work in the child care
field.
The Dupuy court cited Valmonte v. Bane. 18 F.3d 992,
1002-04 (2d Cir.1994) holding that “being listed on the state
child abuse register stigmatized the plaintiff who said she
would be applying for a child care position because her status
would be disclosed to her potential employers when they
consulted the register, as required by state law, Valmonte. 18
F.3d at 1000, as disclosure by DCFS is a condition of
employment, ... all current and prospective employees of a
child care facility who have any possible contact with children
in the course of their duties, must authorize DCFS to conduct
a background check to determine if the person has an
indicated report against him.
Because a prospective
employee's status is disseminated to his potential employer, by

116a
c) Falsity
283.
The Bar has defamed Telasco by
knowingly,
intentionally,
willfully
and/or
negligently publishing statements about her which
it knew to be false or misleading.142
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 58 of 300
i

284. The Bar had knowledge of the falsity of
the
defamatory statements,
or
made
the
defamatory statements with reckless disregard for

operation of state law, during the hiring process, we believe
that the plaintiffs have met the publication requirement.”
142 "In all cases of alleged defamation, whether libel or
slander, the truth of the offensive statements or
communication is a complete defense against civil liability,
regardless of bad faith or malicious purpose." It is the
defendant's burden to "justify," or show the truth of the
statements. Significantly, however, the defendant need not
justify the literal truth of every word of the allegedly
defamatory matter. It is sufficient if the substance of the
charge is proven true, irrespective of slight inaccuracy in the
details, "so long as the imputation is substantially true so as
to justify the ’gist or sting' of the remark." See Gertz v. Robert
Welch. Inc. (1974) 418 U.S. 323, 339-340); and Milkovich v.
Lorain Journal Co. 497 U.S. 1, 18-20 (1990).

\

117a

the truth because it fabricated the grounds which
support the defamatory statements.143
285.
The Referee’s Report and the
disbarment judgment for theft against Telasco
which are an intricate part of the grievance letter
has subjected Telasco to hatred, distrust, ridicule,
contempt, and disgrace.
The Florida Bar knew that making
286.
these false and fraudulent claims against Telasco
would cause severe damage to her reputation,
business opportunities, social relationships, and
her career.144
143 In Claridv v. Golub. (11th Cir., 2015), following the
Plaintiffs arrest, Defendant completed an offense report
indicating that Plaintiff had committed disorderly conduct by
violently threatening Defendant as he tried to deescalate the
disturbance, and that Plaintiff had then committed battery on
a law enforcement officer by pushing Defendant with both of
his hands. Plaintiff contends that Defendant fabricated
critical parts of the report, most importantly the allegation
that Plaintiff had threatened and pushed Defendant. The
court held that Defendant’s contention is supported by
testimony in the record and the evidence suggests that the
State Attorney relied on Defendant's report in deciding to
prosecute Plaintiff, and in defining the charges against him.
The Golub court cited Bank of Am. Corp. v. Valladares, 141
So. 3d 714, 718 (Fla. 3d DCA 2014) holding that a person who
reports a crime acts maliciously when he "knows the report is
false or recklessly disregards whether the report is false."
144 A defamatory statement is a statement that tends
to harm the reputation of another by lowering her in the

118a
287. The Florida Bar acted negligently on a
matter concerning Telasco, a private person.
288. The Florida Bar’s defamation of Telasco
is not privileged and is actionable.
THIRD CAUSE OF ACTION
Common Law Defamation by Implication
289. Telasco repeats and realleges each and
every allegation of the foregoing paragraphs as if
fully set forth herein.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 59 of 300
290. Telasco sues The Bar for defamation by
implication.145

estimation of the community and exposes the plaintiff to
hatred, ridicule, or contempt,
injures her business,
reputation, or occupation. Jews for Jesus. Inc, v. Edith Rapp.
997 So.2d 1098, 1109 (Fla. 2008).
I
l

“The primary purpose of tort law is 'that wronged
persons should be compensated for their injuries and that
those responsible for the wrong should bear the cost of their
tortious conduct."’
145 “Defamation by implication arises, not from what
is stated, but from what is implied when a defendant '(1)
juxtaposes a series of facts so as to imply a defamatory
connection between them, or (2) creates a defamatory
implication by omitting facts, [such that] he may be held

119a
291. The Bar has defamed Telasco by
negligently, and with reckless disregard for the
truth when it published the grievance letter with
its accompanying documents charging that Telasco
is a thief and her character is unbecoming of a

responsible for the defamatory implication
Jews for
Jesus, Inc, u. Rapp. 997 So.2d 1098, 1106 (Fla. 2008).
Defamation by implication occurs when a publication
states facts that are literally true, but produces a defamatory
meaning apparent from a plain reading of the publication in
its entirety. See Chapin v. Knisht-Ridder. Inc 993 F.3d 1087
(4* Cir. 1993).
[T]he [defamatory] language must not only be
reasonably read to impart the false innuendo, but it must also
affirmatively suggest that the author intends or endorses the
inference." (quoting Chapin u. Knight-Ridder, 993 F.2d 1087,
1092*93 (4th Cir. 1993))); Armstrong v. Simon & Schuster,
Inc., 85 N.Y.2d 373, 625 N.Y.S.2d 477, 649 N.E.2d 825, 829-30
(1995) ("Defamation by implication' is premised not on direct
statements but on false suggestions, impressions and
implications arising from otherwise truthful statements."); see
also Milkouich v. Lorain Journal Co., 497 U.S. 1, 13, 20, 110
S.Ct. 2695, 111 L.Ed.2d 1 (1990) (recognizing that defamation
can arise where a statement of opinion reasonably implies
false and defamatory facts); Cooper u. Greeley & McElrath, 1
Denio 347, 348 (N.Y.Sup.Ct. 1845) (holding that a publisher
was liable to James Fennimore Cooper for a publication that
implied Fennimore had a poor reputation); Restatement
(Second) of Torts § 566 ("A defamatory communication may
consist of a statement in the form of an opinion, but a
statement of this nature is actionable only if it implies the
allegation of undisclosed defamatory facts....").

120a
lawyer and she is a clear and present danger to the
public as a licensed practicing attorney.
292. The Bar’s defamation of Telasco was made
negligently and recklessly.
293. The Bar had knowledge of the falsity of
the Defamatory statements, or made the
defamatory statements with reckless disregard for
the truth because it fabricated the grounds which
support the defamatory statements.
294. The Bar knew that when it issued the
grievance letter, it made a defamatory publication
to a third party, The New York State Bar.
295. The New York Bar indeed read and
understood the defamatory statements made in
said letter. It was necessary that Telasco not only
provide the New York Bar with a copy of the
Amended
Referee’s
report
recommending
disbarment, but Telasco had to give an explanation
as to the deceit and falsehood used by The Bar to
secure this judgment.
i

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 60 of 300.
296. The perceived view of the public and The
New York Bar is that The Florida Bar is an elite,
prestigious organization makes any explanation
given by Telasco to attempt to clarify The Florida

121a
Bar’s malicious and fraudulent action against her
will not be believed.
297. When The Bar published the grievance
letter stating that Telasco was disbarred to the
New York State Bar, even though this is a true
statement, it create the false impression that
Telasco has committed unethical and/or criminal
acts which warranted her disbarment.
298. The grievance letter further implies that
Telasco’s conduct, characteristics and condition are
incompatible with the proper exercise of her lawful
profession and is of low moral character.
299. The Bar acted negligently on a matter
concerning Telasco, a private person.
300. The grievance letter has subjected Telasco
to hatred, distrust, ridicule, contempt, and
disgrace.
301. The Bar’s defamation of Telasco is not
privileged and is actionable.

VI.

DAMAGES WITH REGARD TO ALL
COUNTS

122a
302.
As a direct and proximate result of
The Bar’s defamation against Telasco,146 Telasco
suffered and continues to suffer significant harm
and damages to herself as an individual which
damages include: a) financial harm to her business
reputation; b) financial harm to her business;
obliteration of her professional opportunities; c)
obliteration of her ability to seek and secure
employment; d) mental anguish;
e) physical
deterioration; f) damage to her reputation
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 61 of 300
and standing in the community; g) personal
humiliation; h) The Bar’s continued defamation of
her character has made her lose opportunities both
outside of and within the legal community.147
146 In Miami Herald Publishing Company v.
Brown. 66 So.2d 679, 680-81 (Fla.1953), the court made clear
that general damages for defamation per se are "those which
the law presumes must naturally, proximately, and
necessarily result from the publication of the libelous matter.
They arise by inference of law, and are not required to be
proved by evidence." Campbell v. Jacksonville Kennel
Club. 66 So.2d 495 (Fla. 1953), agreed that damages are
presumed to result from defamation per se and need not be
proved. Thus, "It is sufficient that a private plaintiff prove
negligence" in a defamation action in . See Miami Herald
Publ'g Co. v. Ane. 458 So.2d 239 (Fla. 1984) at 242.
The tort of defamation under Florida law protects
economic interests as well as humiliation and
embarrassment. Retv v. Green. 546 So.2d 410, 423 (Fla. 3d
147

I

123a
and i) depression.148

DCA 1989), rev. denied sub nom Southern Commodity Corn,
u. Retv. 553 So.2d 1166 (Fla. 1989);Soiti/iem Commodity
Corp. v. Rety, 553 So.2d 1166 (FLa.1989) (victim may recover
consequential business damages for defamatory falsehood
prejudicing him in trade or business; no error in admitting
evidence of drop-off of sales in business).
148 Statements that are “defamatory per se,” are
recognized under Florida Law when statements are so
powerful in their ability to hurt someone they are presumed
harmful as a matter of law, Montgomery v. Knox. 23 Fla. 595,
3 So. 211, 217 (1887), such that a court will allow damages to
be awarded in these cases even if no evidence of harm has
been presented.
“[T]he law presumes malice in their
utterance.” Abraham v. Baldwin. 52 Fla. 151, 42 So. 591, 592
(1906), where the defamatory words are “... of such common
notoriety established by the general consent of men, the
courts must of necessity take judicial notice of their harmful
effect.” Lavne u. Tribune Co.. 108 Fla. 177, 146 So. 234, 236
(1933).
Words which are actionable in themselves, or per se,
necessarily import general damages and need not be pleaded
or proved but are conclusively presumed to result. Moreover,
malice is presumed as a matter of law from the publication of
such words.” Bobenhausen v. Cassat Avene Mobile Homes.
Inc.. 344 So.2d 279 (Fla. I*1 DCA 1977).
“ In determining the types of compensatory damages
recoverable in a defamation suit, Florida law recognizes two
classes: general and special. General damages are those
which the law presumes must naturally, proximately and
necessarily result from publication of the libel or slander.
They are allowable whenever the immediate result is to
impair the plaintiffs reputation, although no actual

124a
303. Telasco suffered for harm and continues to
suffer as she witnessed the severe harm and
damage imposed on her children and her elderly
mother, who died in 2011 with fear, despair and
hopelessness because she knew that she was dying
leaving her only daughter, Telasco, alone,
damaged, unemployable at the hands of one of the
most powerful organizations determined to
continue its harm against her.
304. Telasco suffered for harm and continues to
suffer in having her home foreclosed. Her inability
to pay her mortgage was a direct and proximate
result of The Bar’s libelous per se action against
her which has destroyed her ability to continue or
obtain meaningful employment.
305. In 2012, Telasco’s property valued at
$1,300,000 was foreclosed on and was
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 62 of 300
gifted to Attorney Damian Matthew Narvaez for
$103,000. Mr. Narvaez created 7320 Biscayne
LLC, the address of Telasco’s home on 3/9/11 which

pecuniary loss is demonstrated. 20 Fla.Jur. Libel and Slander
sections 6, 88.

125a
is over one year before Telasco’s home was in
foreclosure.149
306. Telasco suffered for harm and continues to
suffer as her $80,000 student loans morphed into
over $250,000 and continues to increase because
she cannot make any payments on said loan since
2002, as she has become completely unemployable
as a direct and proximate result of The Bar
libelous per se action against her.150
307. Telasco suffered for harm and continues to
suffer as an actual and approximate result of The
Bar’s malicious action against her.
More
specifically, Telasco sustained an injury to her left
ear as a child which had only made her deaf in her
left ear. In 2004 at the height of the humiliation,
shame, depression, hopelessness, and stress,
imposed on Telasco by The Bar, Telasco developed
a condition called facial nerve neuroma, when a
tumor developed in her left ear and facial area as
a result of said stress.
308. Telasco suffers from severe inner ear
aches to include the left side of her head and face.
She recently received radiation treatment for this
tumor and is hopeful that this will alleviate her
pain.
149 See Exhibit “Tl” and “T2” documentation on 7320
Biscayne Blvd. and 7320 Biscayne LLC respectively.
150 See Exhibit “U” student loan documentation.

126a
309. Telasco is taking prescription nerve pills
to calm the nerves in her inner ear and the left side
of her face and head.
310. Telasco regularly sleeps with a
Thermophore heating pad against the left side of
her face to alleviate the pain and to help her sleep.
311. As a direct and proximate result of The
Bar malicious or negligent actions against Telasco,
damages for defamation per se are warranted
against The Bar.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 63 of 300
312. Telasco demands judgment be entered
against The Bar including an award of
compensatory and actual damages in an amount to
be determined at trial, punitive damages,151 pre151 Section 768.73(l)(c), Florida Statute, (2018) states
“Where the fact finder determines that at the time of injury
the defendant had a specific intent to harm the claimant and
determines that the defendant’s conduct did in fact harm the
claimant, there shall be no cap on punitive damages.”
The general rule is that in libel actions, even though no
special damages may have been proven, a plaintiff may still
recover punitive damages upon a showing that the
publication was made for malice or ill-will toward him."
Bobenhausen v. Cassat Ave. Mobile Homes Inc.. 344 So.2d 279
at 282 (Fla. 1st DCA 1977).

127a

judgment interest, post-interest and costs, and such
other relief as the Court may deem just and
proper. 152
313. As a result of The Florida Bar’s action,
Telasco suffered significant personal harm,
including harm to her business, professional
endeavors and prospects, career and finances.153
To the same effect is Saunders Hardware Five and Ten.
Inc, v. Low, 307 So.2d 89 at 894 (Fla. 3d DCA 1974), the court
held, "we hereby adopt the general rule that where the
defamation complained of is actionable per se, punitive
damages may be awarded even though the amount of actual
damages is neither found nor shown, for in such a case the
requirement of a showing of actual damages as a basis of an
award of exemplary damages is satisfied by the presumption
of injury which arises from a showing of libel or slander that
is actionable per se."
152 The tort of defamation under Florida law protects
economic interests as well as humiliation and
embarrassment. Retv v. Green, 546 So.2d 410, 423 (Fla. 3d
DCA 1989), rev, denied sub nom Southern Commodity Corp.
u. Retv. 553 So.2d 1166 (Fla. 1989); Southern Commodity
Corp. v. Rety, 553 So.2d 1166 (Fla.1989) (victim may recover
consequential business damages for defamatory falsehood
prejudicing him in trade or business; no error in admitting
evidence of drop-off of sales in business).
153 In Hartley & Parker v. Copeland. 51 So.2d 789
(Fla.1951), and Commander v. Pedersen. 116 Fla. 148, 156 So.
337 (1934), the court held that general damages are
conclusively presumed to result from defamation per se and
that "special damages need not be shown to sustain the
action." 156 So. at 341.

128a
314. Telasco’s education and experience would
have made her employable in her own business; In
2005 Telasco won several awards when she debuted
her short film “In God Shadow” which would have
led to high paying employment opportunity in the
entertainment industry but for the defamation of
her character and other tortious actions by The
Bar. As of 2008, 32 potential clients and business
associates pulled the docket of the fifth case.
Telasco believes that the other 4 cases that The
Florida Bar fabricated against her.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 64 of 300
315. The Florida Bar’s conduct was
unreasonable, outrageous and exceeds the bounds
tolerated by decent society, and was done
negligently,
maliciously and/or with reckless
indifference to cause Telasco severe mental and
emotional pain, distress, anguish and loss of

In Miami Herald Publishing Company v. Brown. 66
So.2d 679, 680-81 (Fla.1953), the court made clear that
general damages for defamation per se are "those which the
law presumes must naturally, proximately, and necessarily
result from the publication of the libelous matter. They arise
by inference of law, and are not required to be proved by
evidence." Campbell v. Jacksonville Kennel Club. 66 So.2d 495
(Fla. 1953), agreed that damages are presumed to result from
defamation per se and need not be proved.

129a
enjoyment of life, so as to also justify the award of
punitive and exemplary damages.
VII.

PRAYER FOR RELIEF

316. With regard to all counts, Telasco
demands that judgment be entered against The Bar
for compensatory and actual damages in excess of
$75,000.00
resulting
from
its
financial,
reputational, emotional and professional injury to
Telasco, as well as equitable relief as may be
appropriate, and such other relief the Court may
deem just and proper.
317. Telasco further prays for an award of
punitive damages in an amount in excess of
$75,000.00 to punish The Bar for its outrageous,
deceitful, unprecedented, vicious and malicious
conduct toward Telasco.
The Bar’s malicious
actions has left Telasco in ruins. A substantial
punitive damages award help restore all that
Telasco has lost and will deter The Bar from
committing such egregious acts in the future
against others who are similarly situated.
VIIL JURY DEMAND
318. Telasco respectfully demands a jury trial
on all issues so triable.
OATH

130a
Under 28 U.S.C, § 1746, I, Anne Georges
Telasco, declare under penalty of perjury that the
foregoing complaint has been prepared truthfully
and accurately. The contents thereof are true of my
own knowledge, except if stated to be made upon
information and belief, and as to such information,
I believe them to be true.
ISI
Anne Georges Telasco
Pro Se Plaintiff
Rochester, New York 14611
Phone: 585-201-2492
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 65 of 300
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was filed via CM/ECF on this
2nd day of March 2019 [2020] and served upon the
following:
Barry Scott Richard, Esq.
Karusha Young Sharpe, Esq.
Greenberg Traurig PA,
101 East College Avenue,
Tallahassee, FL 32301
IS/
Anne Georges Telasco, Pro

131a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 67 of 300
EXHIBIT A1
The Florida Bar
651 East Jefferson Street
Tallahassee, FL 32399-2300
March 23, 2018
Ms. Anne G. Telasco
764 Jay Street, Apt. 2
Rochester, NY 14611
Re: Request for Information concerning
Anne Georges Telasco,
Bar #939420
Dear Ms. Telasco:
This letter is in response to your inquiry regarding
your discipline history with The Florida Bar. You
were admitted to practice in Florida on June 25,
1992, and you are currently ineligible to practice
law in Florida due to the following restictions;
1. Disbarred, effective 7/11/2002
2. Suspended, effective 12/14/2001
The Bar disposes of files that are closed by bar
counsel or grievance committee without a finding of
probable cause, one year after the date the files

